<html>
<title> - KOSOVO: A WAY FORWARD?</title>
<body><pre>[Senate Hearing 109-683]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-683
 
                         KOSOVO: A WAY FORWARD?

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                            NOVEMBER 8, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
30-677                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     2
Burns, Hon. R. Nicholas, Under Secretary for Political Affairs, 
  Department of State, Washington, DC............................     8
    Prepared statement...........................................    12
    Response to question submitted by Senator Lugar..............    48
    Responses to questions submitted by Senator Boxer............    48
Holbrooke, Hon. Richard C., Vice Chairman, Perseus LLC, New York, 
  NY.............................................................    32
    Prepared statement...........................................    35
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Voinovich, Hon. George V., U.S. Senator from Ohio................     5

                                 (iii)

  


                         KOSOVO: A WAY FORWARD?

                              ----------                              


                       TUESDAY, NOVEMBER 8, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee) presiding.
    Present: Senators Lugar, Hagel, Chafee, Voinovich, 
Martinez, Biden, Sarbanes, and Bill Nelson.

 STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. Today the committee meets to 
discuss the future of Kosovo and the American role in bringing 
stability to Southeastern Europe.
    During 1998 and 1999, the United States and our NATO allies 
attempted to stop the escalating violence between ethnic 
Albanians and Serb forces in Yugoslavia's Kosovo Province. 
These efforts culminated in 1999 in a 78-day NATO bombing 
campaign against Serbia. In June of that year, former Yugoslav 
leader Slobodan Milosevic agreed to withdraw his forces from 
the province and since then Kosovo has been administered by a 
combination of U.N. and local Kosovar governing structures.
    The U.N. mission in Kosovo, known as UNMIK, retains 
ultimate political authority in the province and is backed by a 
NATO-led peacekeeping force charged with providing a secure 
environment. At its inception immediately after the bombing 
campaign, UNMIK assumed primary responsibility for promoting 
substantial autonomy and self-governance in Kosovo and for 
facilitating a political process to determine its future 
status. In 2004 UNMIK introduced the ``standards before 
status,'' policy which described economic, political, and 
social benchmarks that were to be met in Kosovo before a final 
decision on Kosovo's status was made.
    The United States has played a leading role in assisting 
Kosovo to meet the standards established by the United Nations. 
Last month, based on the assessment provided in a report by the 
U.N. Special Envoy to Kosovo, the United Nations Security 
Council agreed to move to the next phase of this process in 
Kosovo. I commend the appointment of former Finnish President 
Martti Ahtisaari to head the upcoming talks on the future 
status of Kosovo and I wish him well as he seeks to guide the 
parties to a compromise that will secure long-term peace in 
Southeastern Europe.
    A peaceful and secure future for Kosovo lies in building 
democracy, in respecting human rights, and in fostering ethnic 
reconciliation. A successful conclusion to Kosovo's status is 
crucial to Balkan reintegration into Europe. Much work is left 
to be done, however. The U.N. report praises Kosovo's 
achievements in establishing new political and economic 
institutions and in developing a legislative framework. But it 
also details the challenges that remain, including widespread 
poverty, limited observance of the rule of law, a weak judicial 
system, and continued ethnic tensions.
    While many Kosovar Albanian leaders contend that Kosovo 
should be granted immediate and unconditional independence, 
many Serbian leaders have voiced their view that absolute 
independence for Kosovo is a nonstarter. Bridging this 
diplomatic distance will require a compromise among the parties 
and sustained commitment from the international community and 
especially the United States.
    The United States continues to contribute nearly 2,000 
troops to the NATO-led peacekeeping force in Kosovo. Because of 
the outstanding work of American peacekeeping troops and U.S. 
support for the ``standards before status'' policy, the United 
States retains significant credibility in the region. We must 
work closely with our European allies to improve the climate 
for peace.
    We are pleased today to welcome two distinguished witnesses 
who bring great expertise to our discussion of Kosovo. First, 
we will hear from Under Secretary of State for Political 
Affairs, Nicholas Burns, who will update us on U.S. diplomatic 
efforts in the region. Then we will hear from Ambassador 
Richard Holbrooke, one of the architects of United States 
policy toward Southeastern Europe, who will offer his thoughts 
and recommendations on the future of Kosovo and the Balkans.
    We thank our witnesses for joining us. We look forward to 
their insights.
    I would like to recognize, now, the distinguished ranking 
member of our committee, Senator Joseph Biden.

 OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR 
                         FROM DELAWARE

    Senator Biden. Thank you very much. Let me begin, Mr. 
Chairman, by thanking you for convening this hearing. Although 
there is a lot of trouble left in Kosovo, I would just--I would 
like to point out that our intervention in Kosovo, and before 
that in Bosnia, has saved hundreds of thousands of lives in my 
view, at minimal cost, although a single American life is 
difficult to deal with losing, but with in relative terms a low 
cost.
    I also want to welcome our witnesses, Under Secretary of 
State Nicholas Burns and former Ambassador Dick Holbrooke, who 
played such a significant role in bringing this carnage to an 
end in Bosnia.
    But the United States and the people of Southeast Europe, 
as we all, I think, would agree, are better off as a result of 
the efforts of Ambassador Holbrooke and our Secretary, as well 
as present and former administration leaders.
    Mr. Chairman, in 1999 the United States led NATO forces in 
a military campaign to protect the people of Kosovo from the 
pathological belligerence of Slobodan Milosevic. During the 6 
years since that conflict ended, the United States and other 
countries have devoted billions of dollars and millions of man-
hours in pursuit of progress in Kosovo. On a personal note, my 
own son, when he was at the Justice Department, volunteered and 
was stationed in Kosovo to try to help rebuild the province's 
shattered legal system, and it was a worthwhile experience for 
him. But he was one of just hundreds and hundreds and hundreds 
and thousands of man-hours that have gone into trying to 
provide some stability there.
    The international community's extraordinary investment in 
Kosovo I think has few historic parallels. Fortunately, it has 
produced, I think, very important dividends. In marked contrast 
to the chaos of 1999, Kosovo's institutions are more credible 
today and more capable. The province's citizens have 
participated in several free and fair elections. With the 
tragic exception of last year's March riots, Kosovo has been 
largely free of interethnic violence.
    These accomplishments should be recognized, but, as you 
pointed out in your statement, Mr. Chairman, they cannot mask 
the reality that the current situation in the province is 
fundamentally unworkable. Kosovo's economy remains a hostage of 
the province's undefined legal status. Until the status issue 
is resolved, Kosovars legally cannot receive assistance from 
international financial bodies such as the World Bank and they 
will not receive needed foreign investment.
    Ethnic Albanians feel, with some justification, I might 
add, that the international community has been kicking the can 
down the road on the status issue. They have spent too long 
struggling to build a society on a foundation of uncertainty, 
and I think they need and deserve a decision.
    Earlier this year, Under Secretary Burns said that the 
status quo in Kosovo is neither sustainable nor desirable, a 
statement with which I agree. Personally, I think both the 
political and economic situation need an extreme makeover. I 
believe some form of independence for Kosovo is the only 
solution that will allow the citizens of Kosovo and Serbia to 
realize a future of stability and modernity.
    The political process designed to resolve Kosovo's status 
is under way, as we know, but in an attempt not to prejudge the 
outcome of the talks, officials from the United States and many 
other interested countries have skirted key issues.
    Mr. Chairman, I worry that in doing so we will feed the 
very instability that we are trying to avoid. Trouble in the 
Balkans is almost always--I emphasize, almost always--in my 
experience, and I think if you look back well beyond my 
experience, it is almost always the product of false 
expectations.
    Few cases have demonstrated this phenomenon more vividly 
than Slobodan Milosevic's misguided assumption that NATO would 
not act decisively to protect the people of Kosovo from his 
aggression. Kosovars have spent too many years stuck in a 
political limbo as a result of that miscalculation and it is 
time for politicians and diplomats to start leveling with the 
citizens of this region.
    Finding a solution in Kosovo is going to require tough 
compromises on all sides and, unfortunately, few leaders are 
proving courageous enough to prepare their people for what lies 
ahead. To the extent that we fail to spell out the hard facts, 
we risk becoming accomplices in this dereliction of duty. The 
people of Serbia and Montenegro must recognize that holding 
onto Kosovo would be an act of willful sabotage against the 
future of their country. Generations of Serbs stand to reap 
enormous benefits from closer ties to NATO and the European 
Union and that will be possible once the Serb war crimes at The 
Hague are concluded and Kosovo no longer serves as a drag 
parachute on Serbia's future.
    In stark contrast, Serbia, I believe, will find a future of 
frustration and isolation if it persists in clinging to the 
territorial artifacts of its bloody past. Serbia does not have 
the political stature or practical ability to govern Kosovo. It 
is time for the Serb leaders, in my view, to publicly 
acknowledge that reality and to stop obstructing progress in 
Kosovo. Once that happens, I believe it will be easier to 
address Belgrade's legitimate interests, such as the protection 
of Serbian heritage sites and minority populations.
    At the same time, the people of Kosovo must understand that 
a successful outcome to the negotiation process will be 
virtually impossible unless they and their leadership display 
substantial flexibility, restraint, and a maturity that I am 
not certain exists. Unfortunately, many Kosovar Albanians have 
come to believe that negotiation is a four-letter word. They 
are wrong. Independence for Kosovo, when it comes, will come 
because of Kosovars' willingness to seek compromise, not in 
spite of it.
    As a community that spent years as an oppressed minority, 
Kosovars should be doubly receptive to the concerns of their 
own minorities. Serb cultural ties to the area and concerns 
over the safety of Kosovo's Serb population are not legitimate 
grounds for governing Kosovo from Belgrade, but these concerns 
must be recognized and respected. They are absolute legitimate 
concerns for Belgrade and should be concerns for all of Kosovo.
    Lastly, Kosovo's large international community should be 
working overtime to make sure that the Kosovo which emerges 
from the status talks is in the best possible shape. That is 
going to take a lot of effort. The economy is stagnant, 
organized crime and corruption are rampant, and the Serb and 
Albanian communities remain largely estranged. Those issues 
will not be resolved before Kosovo's status is decided, but 
UNMIK and relevant NGOs need to use every ounce of capacity 
they have now in order to ameliorate these problems before 
there is an agreement on Kosovo's final status. The long-term 
success of any status agreement may depend on their efforts as 
much as anyone else.
    Mr. Chairman, I realize that I used some strong words 
today, but the stakes in Kosovo are too high to risk failure 
account of politeness. Notwithstanding the challenges ahead, I 
am optimistic about the future of Southeast Europe and I look 
forward to the time when the only hearings this committee 
convenes on the Balkans relate to how we can cooperate with the 
region's thriving democracies to address problems elsewhere in 
the world, and I really believe we can get there.
    Pristina is one of the few Muslim cities in the world where 
the United States is not only respected, but revered. As my son 
said: ``Dad, in Kosovo they're naming streets after American 
Presidents and diplomats. Where else in the world is that 
occurring?'' If we get Kosovo right, Muslims around the world 
will be reminded how the United States came to the aid of 
Kosovo's Muslim population, helped them build a strong, 
independent, multiethnic--emphasis, multiethnic--democracy. 
That would be a great story, and it is a story that needs to be 
told. But it will not happen without a lot more work on the 
part of the Kosovars, the Serbs, as well as the international 
community.
    Mr. Chairman, I look forward to discussing the task before 
us with our witnesses, two of the most prominent men in this 
area in the country. As the title of this hearing would 
suggest, I look forward to finding a way forward in Kosovo.
    The Chairman. Well, thank you very much, Senator Biden.
    Senator Hagel, do you have an opening comment?
    Senator Hagel. No opening comment.
    The Chairman. Senator Voinovich, you have long been 
involved in this area and I know that you have a statement for 
us.

 STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR FROM OHIO

    Senator Voinovich. Thank you, Mr. Chairman, for holding 
this hearing and thank you for the opportunity to make some 
opening remarks, because, as many here today may know, the 
future of Southeast Europe is an issue that is very near and 
dear to my heart. I suspect that I have spent more time over 
there than any Member of the Senate. I visited Kosovo four 
times since the end of the war with Serbia in 1999 and I have 
followed the Balkans for most of my career.
    What happens there is crucial to our national security and 
peace in the world. I cannot tell you how important it is to me 
that our administration continues to pay close attention to 
this part of the world and lead it on a path to peace, 
stability, and prosperity.
    I want to, as I say, thank you for holding this hearing. It 
is timely, as you mentioned, because the status talks are going 
to begin. I would like to also thank the chairman and the 
ranking member of this committee for cosponsoring my resolution 
on the future of Kosovo and for helping me get it passed in the 
Senate. I particularly appreciate Senator Biden's support of 
that because I know how closely he has been watching the 
situation there in Kosovo.
    Under Secretary Burns, thank you for your leadership on 
this issue and for coming to speak to us today. I could not be 
more delighted with the team that Secretary Condoleezza Rice 
has put in place to deal with the important issues in Southeast 
Europe: Under Secretary Nick Burns, with whom I have worked 
closely during his time as Ambassador to NATO and who knows 
these issues very well; Assistant Secretary Dan Fried, who 
brings vast experience from the National Security Council and 
his strong diplomatic career; and Deputy Assistant Secretary 
Rosemary DiCarlo, who recently came to brief my staff on the 
situation in Kosovo. These are people that really understand 
the region and are not going to have to be there for a year to 
figure out the nuances.
    I know firsthand that the team gets it. They understand the 
history of the region, how fragile it is and how necessary it 
is that Kosovo gets the attention that it deserves.
    I am also pleased that Kofi Annan has appointed Martti 
Ahtisaari to head the negotiations on Kosovo's future. Mr. 
Ahtisaari has a prestigious background as the former President 
of Finland and a highly regarded U.N. diplomat. I understand 
that Mr. Ahtisaari was one of the individuals who negotiated 
with Milosevic to end the fighting in Kosovo in 1999 and I 
believe his background should make him a good candidate to lead 
these negotiations.
    Clearly, we have a great team and the next important step, 
of course, is for Secretary Rice to appoint the right 
individual U.S. envoy to help Mr. Ahtisaari get the job done. 
It sets the tone for a continued involvement in our commitment 
to Kosovo, its relationship with Serbia and Montenegro, and the 
future of Southeast Europe. U.S. leadership in this part of the 
world is both crucial to the region and to the credibility of 
the final outcome.
    Since 1999, the United States has invested over $817 
million in Kosovo in the form of United States department 
assistance programs, billions more in United States tax dollars 
have been invested in the form of military operations and 
peacekeeping in Kosovo. Great investment. We must send a clear 
message to our partners in the international community, in the 
Contact Group, the EU, and throughout the region that we stand 
by our original commitments to Southeast Europe.
    There is no doubt that many of us are disappointed with the 
progress rate in Kosovo and hope more would have been 
accomplished. Kai Eide issued a very fair report, citing the 
lack of progress in several critical areas, and I would like to 
read some quotes from the report: ``With regard to the 
foundation for a multiethnic society, the situation is grim''; 
``Kosovo police and judiciary are fragile institutions''; 
``Property rights are neither respected nor ensured''; 
``Further progress in standards implementation is urgently 
required.''
    These are just a few quotes to highlight the fact that the 
situation is not ideal for status talks and it will call for an 
even greater commitment to see the situation through. I think, 
Mr. Chairman, that we ought to be very thankful that President 
or Prime Minister Kostunica, President Tadic, and Foreign 
Minister Durazkovic have all gotten together and agreed that 
they are going to be a team on this instead of doing their own 
thing. They understand that if this thing is not handled 
properly it could be exploited by the nondemocratic forces that 
exist in Serbia-Montenegro today.
    I believe that we need to pay immediate attention to the 
fact that Kosovo continues to be unsafe for its minorities, 
their property, and their cultural sights. I recall that when I 
first met with Mr. Rugova and other leaders--at that time he 
was ``Mr. Rugova''--and other leaders in Kosovo at the end of 
the war, I told them that Kosovo's future would depend on their 
ability to treat their own minorities in Kosovo the way that 
they had not been treated by the Serbs in the past.
    Unfortunately, they did not take my words to heart, 
although I reiterated them to President Rugova on at least two 
other occasions: You treat people the way they did not treat 
you, you will end the killing of your children and 
grandchildren in the future and you will start a new chapter in 
Kosovo's history.
    So we need to work on that. I believe it is absolutely 
critical that the international community act immediately to 
protect some of the cultural sites and the surrounding minority 
communities that are most likely to be the targets of 
destruction and violence in Kosovo. This is one of the 
suggestions made by Kai Eide and I believe it is one of the 
most important things that the people of Kosovo could do to 
build confidence at the outset of these negotiations. In other 
words, guarantee that the churches and cultural sites that are 
important to Serbia and Serbia's cultural heritage, and they 
are also cultural sites of Europe, that they are going to be 
protected.
    I think that people have really not a full appreciation of 
the impact that the destruction of 30 churches, a year ago last 
March, had on the relationship between the Serb people and 
Kosovo, and I think it is really important that it be made very 
clear that those sites are going to be protected.
    Another step that I believe is needed in the near term is 
to give the Kosovars more authority and hands-on experience in 
running their own institutions and government. It is no secret 
that UNMIK has been heavily involved in the process of 
developing these institutions, often to the detriment of the 
Kosovars. UNMIK has little credibility with Kosovo because 
there has been a strong--there have not been strong or palpable 
results. It is time to cut through the bureaucracy of UNMIK and 
give Kosovars more freedom to stand up for their own 
institutions.
    Again, we need to let the Kosovars know that the future of 
Kosovo is in their hands. In turn, the Kosovars need to address 
the shortcomings of the Eide report and show that their 
intentions are to make Kosovo a better place by fulfilling the 
original standards of Resolution 1244. I hope that as the talks 
ensue there will be some firm benchmarks for achieving these 
objectives and agreed-upon metrics. I think it is really 
important that there be agreed-upon metrics as to whether or 
not progress is being made, so we do not start waltzing when we 
start to get reports on what is going on there.
    In the meantime--and I will finish with this note. In the 
meantime, Mr. Chairman, it is extremely important that we hold 
out the prospect of EU and NATO membership to Macedonia, 
Albania, Croatia, Serbia, and Montenegro. I have long believed 
that membership in the EU and NATO is the common denominator 
that can hold the region together despite their borders and 
their history. I think Slovakia--bringing Slovakia and Bulgaria 
into NATO has really helped to stabilize that area.
    I hope that discussions about EU and NATO membership will 
be accelerated in the next year. It is absolutely imperative 
that the EU understand that their hope for stability in the 
region depends on the prospect of EU membership for all of the 
countries in the region. Likewise, it is imperative that Serbia 
and Croatia make the greatest efforts to understand that 
Mladic, Karadzic, and Gorovina have got to go to The Hague and 
that their refusal is standing in the way of their economic 
well-being.
    Thank you, Mr. Chairman, for allowing me to make this 
statement.
    The Chairman. Well, thank you very much, Senator Voinovich, 
for your statement and for your leadership in this area.
    Senator Martinez, do you have a comment?
    Senator Martinez. No, Mr. Chairman. Thank you for holding 
the hearing, but I have no comments.
    The Chairman. Thank you.
    Well, we appreciate--Senator Sarbanes, do you have a 
comment?
    Senator Sarbanes. Not at the moment.
    The Chairman. Very well.
    We are delighted that you are here. Your statement will be 
made a part of the record in full and you may proceed as you 
wish.

   STATEMENT OF HON. R. NICHOLAS BURNS, UNDER SECRETARY FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Burns. Mr. Chairman, good morning and thank you very 
much for inviting me to be with you today. It is a pleasure to 
see you and members of the committee again. I just wanted to 
thank all the members who spoke and for the comments that you 
made. I must say that I agree very much with what I just heard 
from you, Mr. Chairman, from Senator Biden and Senator 
Voinovich, first on the fact that we have had a successful 
Balkans policy for 10 years. For that, I think we have seen a 
lot of continuity between President Clinton's administration 
and President Bush's administration. We have to thank President 
Clinton and Secretary Christopher, Secretary Albright, the 
gentleman seated behind me, Richard Holbrooke, who did such a 
brilliant job negotiating the Bosnian Accords 10 years ago this 
month.
    I know that President Bush and Secretary Rice believe that 
we now need a renewed and more energetic American policy to see 
remaining progress in the Balkans be made, specifically on 
Kosovo, also on Bosnia.
    Could I also thank Members of Congress and specifically 
your committee and members here today for your leadership, 
because I remember the role that you played in the early days 
before Dayton in arguing that we should be involved in seeking 
peace there, and certainly the leadership role that Congress 
played in 1999 in arguing that the Clinton administration ought 
to go in and stop ethnic cleansing in Kosovo itself.
    It is this kind of bipartisan leadership that we need here 
in Washington, we need in our foreign policy, and we have it in 
the Balkans. I think it is a great strength of our foreign 
policy in the region.
    I also agree with what many of you said in that it is time 
to get on with final status talks. It has been nearly 7 years 
since we fought that war. The hopes of the Kosovo Albanians and 
the frustrations and hopes of the Kosovar Serbs are evident and 
they deserve a chance to define their own future. That is what 
these status talks will be all about.
    Finally, I agree with all of you on the need for U.S. 
leadership. We have to be involved. We are an indispensable 
country in this equation in the Balkans, and, therefore, our 
troops have to remain and our diplomacy has to be very active.
    That is the basis of what I wanted to say today, Mr. 
Chairman. I will not read my testimony. I just wanted to submit 
it for the record. But if I could make a few comments before we 
go to questions, I would appreciate your listening to those 
comments.
    If you think about our policy post-1989, 1990, in Europe, 
both President George H.W. Bush and President Clinton and now 
President George W. Bush have had one common strategic 
objective, and that is to seek a democratic peace in Europe. 
There has been tremendous progress in seeking that final 
objective, but the Balkans is the last finishing piece to the 
puzzle.
    So, in 2006 our administration believes that we have got to 
turn our attention to the final status talks. We have to be 
very active in trying to find a way to modernize the Dayton 
Accords in Bosnia-Herzegovina to create a single Presidency, a 
stronger Prime Minister, and to help those people break down 
the Berlin Wall that have separated them in that country for 
far too long.
    As Senator Voinovich said, we cannot forget the past and 
the Balkans cannot really move on to have a democratic future 
with the European Union and NATO until the countries arrest 
Radovan Karadzic and Ratko Mladic. They were the architects of 
the greatest war crime in Europe since Nazi Germany at 
Srebrenica 10 years ago. And General Ante Gotovina of Croatia 
also has to be arrested, and the three of them have to face 
trial in The Hague for war crimes.
    Until that happens, we cannot complete this last piece of 
the puzzle, we cannot help these countries become fully 
democratic or fully integrated into NATO or the European Union. 
That is a challenge for those countries.
    As I said, Mr. Chairman, we are facing final status talks. 
In fact, those talks will begin in just a few weeks time. The 
Albanians and the Serbs of Kosovo are going to be given a 
chance to define their own future. You referred to the Kai Eide 
report. It is very clear, and the United Nations has concluded, 
that it is time to get on with these talks, that the period of 
time that we took over the last several years to try to help 
the parties meet basic standards of democratic governance, that 
has been time well spent, but we now have to get to the 
negotiations themselves.
    We share your faith in Martti Ahtisaari, the former 
President of Finland. We think this is an inspired choice by 
Secretary General Kofi Annan. I met with President Ahtisaari 
last week. I hosted a dinner for him with members of the 
Contact Group. I can tell you he has the full support of the 
Russian Federation, of the European countries, and certainly of 
our Government.
    He intends to put together a team in the coming weeks. He 
will be based in Vienna. He will probably make two trips before 
Christmas to the region to begin these talks. Then he thinks in 
January 2006 the most intensive phase of these talks will 
begin.
    The United States believes that we also need to have an 
envoy who will assist. Now, President Ahtisaari will be in the 
lead representing the United Nations. But the credibility of 
the United States is such and, frankly, our political weight is 
such in that part of the world that we believe an American 
envoy must also be present to assist President Ahtisaari.
    I know that the President and Secretary Rice are very close 
to naming that envoy. I wish I could tell you the name of the 
person today, but the final decision has not been made. But 
when it is, I know that that person will want to come up here 
to the Congress and speak with you and get your advice on the 
road ahead.
    Mr. Chairman, it might be useful just to define the basic 
elements of what we think a settlement could be. Senator Biden 
talked about this. Essentially, if you think about what 
happened over the last 6\1/2\ years, we fought a war to prevent 
ethnic cleansing. That war ended successfully for NATO and the 
United States, and then the United Nations passed a resolution 
effectively saying that at some point there had to be a 
political process to define Kosovo's future. We think that it 
is now time to answer the question from Resolution 1244 of June 
1999: Will Kosovo be an independent state or will it continue 
under Serb rule with a greater measure of autonomy?
    Those are the two basic options that Kofi Annan posed 2 
weeks ago when he said it was time to go to final status talks. 
That is going to be the fundamental argument that these two 
sides have, and it will surely be an argument, when they sit 
down together.
    We think it is appropriate, but I would be very happy to 
talk further with Senator Biden and others about this, we think 
it is appropriate that the United States, at this point, not 
support a specific outcome to these talks. It is very important 
that the parties themselves define their own future and answer 
that question that was first asked back in June 1999: What will 
the future of Kosovo be?
    But we do have some views, and our views are that the basic 
facts of Kosovo today have to help inform the final outcome. 
Ninety percent of the people who live in Kosovo are ethnic 
Albanians and they were treated cruelly, even viciously, by 
Slobodan Milosevic. They certainly deserve to live in peace and 
security. The Kosovar Serb population, unfortunately, has been 
dwindling. There is a net outflow of Kosovar Serbs from the 
province and that is continuing this very day. But they need to 
be assured that they have a future in the province and, as 
Senator Voinovich said, that their church and religious and 
patrimonial sites are going to be respected.
    I visited a Serb family in Obilic in Kosovo in June of this 
year, and they are people who came and made a home in Kosovo 45 
years ago. These are elderly people. Their homes were burned 
down in March 2004 by an Albanian mob. Those homes were rebuilt 
with the assistance of the United States and the European 
Union, and the people have moved back in. I went to them and I 
said: Why are you staying if you feel that you are surrounded 
now by the Kosovar Albanian community? They said: This is our 
home. We built our lives here. We raised our children here.
    There are a great number of Serbs who want to stay in 
Kosovo if they feel that their rights can be protected and if 
they feel that they are not going to be subject to the kind of 
attack that we saw just a year and a half ago by a mob of 
Kosovar Albanians.
    So I think that is the fundamental question that we have to 
weigh. For the Kosovar Albanians, they have to prove to us, the 
international community, that they can govern democratically, 
that they can govern effectively, and that they can design a 
future Kosovo that will protect the rights of the minority 
population.
    For the Kosovar Serbs, they have to make a commitment to 
stay, and the government in Belgrade of Serbia-Montenegro has 
to allow them to participate in the political process. You 
know, the Kosovar Serbs cannot sit in the Kosovar assembly 
because Belgrade has told them not to. They did not run in the 
last elections.
    When I sat down with President Tadic and Prime Minister 
Kostunica 3 weeks ago in Belgrade, I said: With all due 
respect, and we are just outsiders looking into your political 
reality, we think it has been a major miscalculation to 
essentially have the Kosovar Serbs boycott the entire political 
process. They have ceded the ground politically to the majority 
population. The views of the people are not being represented 
in the political institutions that we helped to establish.
    So there are challenges on both sides of this equation as 
they sit down together. The Kosovar Albanians, led by Dr. 
Rugova, who is a very courageous man and unfortunately ill as 
we speak, they have established a Team of Unity, and that Team 
of Unity has now to prove its name. Will it be unified? Will 
all those various political leaders on the Albanian side be 
able to sit down together, subordinate their personal and 
political rivalries and negotiate one position for the future 
of the country? They want independence. They have to prove they 
are worthy of it. The Kosovar Serbs have to prove that they are 
willing to stay and be part of that community.
    That is how we see the elements, at least the political 
dynamics, of this negotiation. But it is very important that 
certain principles be upheld as well; the principles of return 
of refugees, of decentralization, of respect for minority 
rights. We do not see partition in the future. We do not see 
the creation of some kind of greater Albanian state in the 
future. Those principles will be important for all of these 
parties to recognize.
    So, Mr. Chairman, as we look ahead--and I want to make sure 
that we leave lots of time for questions and for members to 
speak--those are the political dynamics and some of the 
questions that we think are very important. Could I also say, 
Mr. Chairman, that on the question of Bosnia-Herzegovina, 
Secretary Rice is going to be hosting a 10th anniversary 
commemoration of the Dayton Accords on November 22. We are 
inviting the political leadership of Bosnia-Herzegovina to 
Washington and we have challenged them to say that they will 
commit themselves to a political process that will break down 
the remaining ethnic divisions left in place necessarily by the 
Dayton Accords.
    Can they now look toward a more ambitious vision of their 
own country by establishing a single state with a single 
Presidency, a stronger Prime Minister, and a stronger 
Parliament? Can they commit themselves to arresting the war 
criminals who are still at large 10 years after the massacres? 
Can they commit themselves to police reform and implementing 
defense reform?
    We think those are important goals and we hope they will 
come on the 22nd and pledge their unity on those issues when 
they meet with Secretary Rice. She also will be inviting a 
large number of members of the team who put the Dayton Accords 
together to a ceremony and a lunch, and, of course, Members of 
Congress, to commemorate what we did as a country, the United 
States, so effectively 10 years ago and that is to provide 
leadership in the Balkans.
    I would just conclude, Mr. Chairman, with one story from my 
last trip to the region. In Sarajevo, Pristina, and Belgrade, I 
met with young people at every stop. In each of those places, 
these young students--they were Bosniacs and Croats and Serbs 
in Sarajevo and they were Muslims and Christians in Pristina 
and they were young Serb students at the Faculty of Economics 
in Belgrade--they all said to me: We want to see a multiethnic 
future for our region; we want to overcome the divisions that 
our parents put into place when Yugoslavia splintered.
    I was struck by their message because these were very 
different kids in three different places; I was also struck by 
the fact I did not hear that message from the political 
leadership. I did not hear it at all. They were not preaching 
tolerance of minority rights, at least not in a convincing way, 
in every meeting that I had. They were not saying that the only 
way forward in Bosnia, Kosovo, and Serbia was multiethnicity. 
But these young kids were, and I was struck by that and I 
thought that was a great message and a hopeful message for a 
trip that was an otherwise very difficult trip, filled with 
difficult negotiations.
    But I want to assure you and the Congress our 
administration is dedicated to adding American leadership, 
American energy, American diplomatic creativity to this Kosovo 
final status talks and to these other questions, and we will 
rely upon the help and advice of the Congress as we go forward.
    Thank you.
    [The prepared statement of Mr. Burns follows:]

Prepared Statement of R. Nicholas Burns, Under Secretary for Political 
              Affairs, Department of State, Washington, DC

                              INTRODUCTION

    Mr. Chairman, distinguished Senators, it is a great pleasure for me 
to appear before you once again today to speak about our hope for a 
final peace in Kosovo and our broader American policy in the Balkans 
region. I addressed the House of Representatives on these issues in May 
of this year, and I am pleased to have another opportunity to discuss 
this important subject with Congress.
    President Bush and Secretary Rice have directed a renewed and 
energetic U.S. effort to bring peace and security to this troubled 
region. After a decade of conflicts which had a devastating impact on 
every part of the former Yugoslavia, after hundreds of thousands killed 
and left homeless, we are, at last, seeing real progress on undoing the 
evils of the 1990s. United States policy is designed to point the 
countries of Southeast Europe toward a democratic future as part of 
NATO and the European Union.
    Since the end of the cold war, three American Presidents have had 
one overarching strategic ambition in Europe--to seek a democratic 
peace by unifying the continent in freedom. The Balkans are the 
finishing piece to this puzzle. That is why we must use 2006 to attain 
a final status for the long-suffering people of Kosovo, and to help 
Bosnia-Herzegovina modernize the Dayton Accords by building a more 
integrated state with a stronger central government. It is why we must 
send the despicable war criminals--Radovan Karadzic, Ratko Mladic, and 
Ante Gotovina--to The Hague, as they are responsible for Europe's worst 
human rights abuses since the Nazis. It is why what happens in the 
Balkans matters to our country and why we must use our diplomatic power 
and ingenuity to help the people of the region chart a new future.
    As the history of the last 15 years has demonstrated, the United 
States has an abiding interest in the Balkans. Thousands of our finest 
diplomats and soldiers have spent years trying to build a peaceful 
future there. America and Europe have worked well together--in the 
1990s, we ended the wars in Bosnia and Kosovo, and our troops have 
since kept the peace in both places. In 2004, NATO successfully 
concluded its historic peacekeeping mission in Bosnia. We have also 
worked intensively with all the countries of the former Yugoslavia to 
prepare them for eventual NATO and EU membership. Without stability in 
the Balkans, we will never see a united, peaceful Europe that can be a 
true partner for the United States in promoting democracy throughout 
the world. It is now time to finish the job.
    The Balkans region will not be stable, however, as long as Kosovo 
remains in a state of political suspended animation. The history of the 
past decade tells us that the United States is indispensable to 
stability in the Balkans. We must continue to play this key role as we 
look to support the process that will determine Kosovo's future status. 
We also look forward to continued coordination with Members of 
Congress, noting the valuable support Senators and Representatives, 
including most notably members of this committee, have given to our 
efforts.
    Two thousand six will be a crucial year of decision for Kosovo and 
the Balkans. The U.N.-sponsored Final Status Talks will begin in a few 
weeks time, and after more than 6 years of U.N. rule, it is time for 
the people of Kosovo--Albanian and Serb alike--to be given a chance to 
define their future. Our partners in the Contact Group--the European 
Union, France, Germany, Italy, Russia, and the United Kingdom--agree 
with us that the status quo in Kosovo is neither sustainable nor 
desirable. Earlier this year, the United States led the way to convince 
the United Nations to initiate a review of its standards, conducted 
this summer by Norway's able Ambassador to NATO, Kai Eide. The report 
concluded that further progress on these issues is unlikely until there 
is greater clarity about Kosovo's future status. U.N. Secretary General 
Kofi Annan recommended beginning negotiations to determine Kosovo's 
future status, a recommendation the Security Council endorsed on 
October 24. Secretary General Annan has announced his intention to 
nominate former Finnish President Martti Ahtisaari as the U.N. Special 
Envoy to lead the process. He is, in our view, a superb choice: An 
experienced and resourceful diplomat who commands broad respect in the 
international community.
    The Secretary General's actions have begun the process that will 
lead to an internationally recognized future status for Kosovo. I 
hosted a meeting of the Contact Group with President Ahtisaari in 
Washington last week to kick off these efforts. We expect President 
Ahtisaari will begin his work as soon as the Security Council endorses 
his nomination this week. The United States will very soon name a 
senior American envoy to assist in the negotiations and be ready to 
bring U.S. credibility and influence to bear when and where it can help 
to promote a settlement.
    We understand that diplomatically, this will be tough going. The 
parties to the talks--the Kosovar Albanians, Kosovar Serbs, and the 
Government of Serbia-Montenegro--will see their vital interests at 
stake. We expect them to participate constructively and to restrain 
more extreme groups from using violence to gain political ends. 
Although we will be working for a peaceful settlement, NATO troops will 
have to be ready to defuse potentially violent situations.

                        ELEMENTS OF A SETTLEMENT

    After NATO fought and won the 3-month Kosovo war in 1999, we then 
passed U.N. Security Council Resolution 1244 which called for 
``facilitating a political process designed to determine Kosovo's 
future status.'' That resolution left open the question of what that 
status would be. Nearly 7 years later, it is time to answer that 
question: Will Kosovo, in the future, be independent or will it 
continue under Serb rule with a greater measure of autonomy?
    The United States will not support a specific outcome at this 
stage. It is important that we and our allies remain neutral, because 
the future of the province is the sole responsibility of the Albanian 
and Serb people of Kosovo and the Government of Serbia and Montenegro. 
But the final result should respect the basic facts of Kosovo today--90 
percent of the people are ethnic Albanians who were treated cruelly, 
even viciously, by the government of Slobodan Milosevic. They deserve 
to live in security and peace. The Kosovo Serb population also needs to 
be assured that they have a future there and that their churches and 
patrimonial sites will be respected.
    The negotiations will be difficult. Serb and Albanian positions are 
likely to be mutually exclusive, held with deep conviction and infused 
with nearly 1,000 years of history. Kosovo Albanians insist that they 
can only be secure if they are independent of Serbia. Serbs have 
promoted a future of ``more than autonomy, but less than independence'' 
as the most they could support.
    There is, however, potential for common ground. The aspirations of 
Serbs, Albanians, and Kosovo's other ethnic groups are alike in that 
they all want a future in which they can live secure lives, participate 
in democratic government, and enjoy economic opportunity. There is 
already agreement that Kosovo will be self-governing in some form, that 
it will also remain multiethnic and will protect the cultural heritage 
of all its inhabitants. The United States will continue to work to 
ensure these concepts are incorporated into Kosovo's future status, 
because to make a political determination without these principles 
would leave the door open to future conflict and put at risk the war we 
fought to prevent ethnic cleansing and the strenuous efforts our 
diplomats and soldiers have made to keep the peace.
    As with any process of negotiation, neither side will get 
everything it wants. To reach a lasting result, both will sometimes be 
required to make compromises that may seem to violate important 
interests in the cause of peace. In Kosovo, we face an unprecedented 
challenge of trying to build stability after a NATO intervention led to 
the end of government structures that had served to repress, rather 
than protect, the majority of the population. For 6 years, the United 
Nations has exercised the functions of a government, but, as foreseen 
by U.N. Resolution 1244 in 1999, the time has come to enable Kosovo's 
people to govern themselves consistent with the outcome of the status 
process to come.
    Mr. Chairman, the United States and its European allies have 
decided on several guiding principles that must shape the process of 
determining a future status for Kosovo and guide the work of the 
Special Envoy. We have made clear that a return to the situation before 
1999 is unacceptable and that there should be no change in existing 
boundaries of Kosovo, and no partition. Other principles for a 
settlement include full respect of human rights, the right of refugees 
and displaced persons to return to their homes, the protection of 
cultural and religious heritage, and the promotion of effective means 
to fight organized crime and terrorism. The Contact Group agreed to 
exclude those who advocate violence and that, once begun, the status 
process must continue without interruption.
    We will ensure that the result of the process meets three key 
criteria:

  <bullet> First, it must promote stability not only in Kosovo, but 
        throughout Southeast Europe.
  <bullet> It must also provide full democratic rights for all people, 
        especially minorities.
  <bullet> Finally, it must further the integration of the region with 
        the Euro-Atlantic mainstream.

    The United States must remain committed to continued involvement in 
Kosovo as a status agreement is negotiated, because we have too much 
invested in Kosovo and the Balkans to risk failure by withdrawing 
prematurely. This is where the United States, through its participation 
in the NATO forces in Kosovo, has made a great contribution. U.S. 
forces, including National Guard contingents from several states, have 
been essential in deterring conflict, and they have made extraordinary 
contributions to the communities in which they serve. Our troops have 
maintained security in a tense and sometimes violent environment. They 
have volunteered to help build schools, establish clinics, and have 
cemented strong ties between the people of Kosovo and America. Even 
after a determination of Kosovo's future status is made, we will remain 
committed to peace and stability there. As long as a NATO force is 
required, the United States plans to be part of it.
    The United States currently has 1,700 troops in KFOR, down from a 
high of nearly 6,000 in 1999. During the past few years, we have been 
able to decrease gradually the level of NATO forces and we hope to make 
further reductions in 2006 as NATO shifts to a task force organization 
championed by Supreme Allied Commander General Jones.

                    OUR MESSAGE TO KOSOVO ALBANIANS

    The United States has high expectations for both Serbs and 
Albanians as we begin the status process. I want to use this 
opportunity to repeat our messages to them.
    In October I met with the Kosovo Albanian Team of Unity, 
established by President Rugova to lead talks. The challenge for the 
Kosovo Albanian community is for this team to live up to its name. As 
late as last week, there were troubling signs that Kosovo Albanian 
leaders are anything but unified. In my two trips to the region since 
June, my strong and repeated advice to them has been to put aside their 
political and personal differences. If Kosovo Albanians aspire to 
independence, this is their greatest opportunity to make the case to 
the world that, should they become independent, they will be able to 
govern effectively and in a way that promotes stability in the region.
    I made clear to them that independence must be earned. First, 
Kosovo must continue to develop a functional, democratic government 
that can safeguard the rule of law. Second, there must be generous 
provisions for the security of minorities, including decentralized 
authority. Finally, Kosovo must be able to assure its neighbors that it 
will not export instability. The U.N. standards define the goals Kosovo 
should achieve in preparing for self-government. Kosovo's progress in 
implementing these standards will be the ultimate measure of how well 
it makes its case.
    I also urged the Kosovo Albanian leaders to be ready to compromise. 
Finding the right balance between majority rule and minority rights is 
never easy, but it must be done. To the south, Kosovo's Macedonian 
neighbors have made important progress in addressing the concerns of 
their Albanian minority--progress that could provide some useful 
examples as Kosovo deals with the similar concerns of Serbs and other 
minorities.
    Kosovo leaders should act now to create a positive environment for 
the status talks and make a convincing case that there would be a 
secure future for minorities should Kosovo become independent. They 
should announce that decentralization of government will be pursued 
throughout Kosovo, and that ethnic interests will be given 
consideration in drawing municipal boundaries. NATO acted in 1999 to 
prevent the ethnic cleansing of more than 1 million Kosovo Albanians 
and it would be a tragic irony if Albanians themselves now tried to 
inflict a policy of retribution and intimidation against their Serb 
minority. The United States and its allies will simply not tolerate 
such an outcome. They should also apprehend and punish those 
responsible for hate crimes committed against minorities in March 2004. 
They should state publicly that the independence they seek is only for 
Kosovo, without any changes to its present boundaries. No country, 
including the United States is prepared to support an irredentist 
``Greater Albania'' or an independent Kosovo that aspires to exceed its 
present borders.
    If Kosovo leaders want to present themselves as worthy of 
independence, they must stop all acts of violence and intimidation 
against minorities. Those responsible for such acts must understand 
that they are actually undermining the goals which they profess to 
support.
    I warned them that an attempt by either side to use violence as a 
political tactic during the negotiation will be put down swiftly and 
firmly by NATO. Whatever the settlement of Kosovo's political status, 
it must remain multiethnic, and Serbs and Albanians need to work to 
create conditions under which they will be able to live together 
peacefully.
    In June, I visited a Kosovo Serb family near Pristina. They had 
recently returned after being forced to flee and having their home 
destroyed in the March 2004 violence. This brave Serb family continues 
to have concerns for security and their future prosperity in Kosovo. 
Though their home had been rebuilt, their situation was still 
difficult. The Kosovar Albanians must make Serb families like this feel 
welcome and secure as a result of the settlement.

                       OUR MESSAGES TO THE SERBS

    The Kosovo Serb community, and indeed the Government of Serbia and 
Montenegro, must also assume a heavy share of responsibility for 
successful negotiations. When I met with Kosovar Serb leaders in 
October, I urged them to become more involved politically in Kosovo 
itself. Serbs have told me they would prefer local autonomy for 
themselves in Kosovo. If this is so, it is in their own interest to 
participate in the institutions of local government that will be 
responsible for a future Kosovo. By refusing to participate in 
elections and in the Kosovo Assembly, Kosovo Serbs are missing a chance 
to have a say in Kosovo's future.
    Belgrade must also help Kosovo's Serbs ensure that they will have a 
place in whatever political structure emerges. I told Prime Minister 
Kostunica that his government's policy of having Serbs boycott 
elections and participation in the Kosovo Assembly has been a major 
miscalculation. The Serb community is losing political influence in 
Kosovo and there is now a net outflow of Serbs. As Kosovo will remain 
multiethnic, it will retain important connections with Serbia 
regardless of its political status. Many Kosovo Serbs will remain 
citizens of Serbia in any case and will need access to Serbian 
Government services. Many important Serbian cultural sites, including 
some of the most historic Serbian Orthodox churches, are located in 
Kosovo. The Serb Government will have to look for means to cooperate 
with a future Kosovo to preserve these cultural treasures. Belgrade 
will also want to engage in a discussion of security issues to ensure 
that settlement of Kosovo's status does not undermine the fragile 
stability of the region.
    Whatever Kosovo's future will be, Belgrade can best protect the 
interests of Serbs by encouraging them to participate in politics and 
begin to integrate themselves with their Kosovo Albanian neighbors.

               OVERALL AMERICAN ENGAGEMENT IN THE BALKANS

    Mr. Chairman, while Kosovo's future status is the most serious 
issue to be resolved in Southeast Europe in 2006, there are three other 
issues that will also be important to building the stability and peace 
we seek for the region.
    First, there will be no real peace in the Balkans until the 
countries of the region bring the most notorious war criminals to 
justice. Ten years after the massacre at Srebrenica, the two Serb 
leaders directly responsible remain at large. In Belgrade, I emphasized 
that those of us who are friends of Serbia want to see it shake off the 
remaining burden of the Milosevic era and take its rightful place as a 
European country, and keystone of stability and prosperity in the 
Balkans. The United States has been clear that Belgrade must comply 
with its obligations to the International Criminal Tribunal for the 
Former Yugoslavia. Until the government turns over indicted mass 
murderer Ratko Mladic to the Hague, the United States, will not agree 
to Serbia and Montenegro's participation in NATO's Partnership for 
Peace. The Serbs are making efforts to hold those accountable for 
crimes, but they must do more. Of course, the United States also 
remains determined to see Radovan Karadzic and Ante Gotovina brought to 
justice in The Hague, and we will continue pressing all concerned 
parties to see justice done.
    Beyond a settlement in Kosovo and the arrest of the remaining war 
criminals, there is another diplomatic hurdle to a peaceful stable 
Balkans region in the future: A more unified Bosnia-Herzegovina. Ten 
years ago this month in Dayton, OH, the United States negotiated an end 
to the brutal war in Bosnia and Herzegovina. This was a remarkable 
diplomatic achievement by President Clinton, Secretary of State 
Christopher and its principal architect and negotiator, Richard 
Holbrooke. The Dayton Peace Accords have provided the foundation upon 
which the people of Bosnia and Herzegovina have rebuilt their country 
and their lives. The Accords have allowed over a million people to 
return to their prewar homes. On November 21-22, Secretary Rice and the 
Bosnia-Herzegovina leadership will commemorate the 10th anniversary of 
the Dayton Accords in Washington, DC, Secretary Rice will note the 
extraordinary progress that has been made but also focus on the efforts 
that still need to be made for Bosnia and Herzegovina to become a fully 
democratic country.
    The Dayton Accords were never meant to be set in stone. The people 
of Bosnia and Herzegovina have already recognized the need for reform 
if they are to join NATO and the European Union. Just before my visit 
to Sarajevo in October, the Bosnian Parliament voted, overwhelming, to 
create a single, unified army and Defense Ministry--for the 10 years 
since Dayton, there have been two of each. They also agreed on the need 
to reform their police institutions consistent with EU standards, which 
has enabled the European Union to recommend launching negotiations on a 
Stabilization and Association Agreement with Bosnia-Herzegovina this 
year.
    When the Bosnian leadership comes to Washington in 2 weeks, we will 
be asking them to embrace an even more ambitious vision--erasing major 
political divisions by agreeing to a single Presidency, a stronger 
prime ministership and a reformed Parliament. When the Bosnian war 
stopped in November 1995, the ethnic divisions in the country were 
frozen in place. It is now time to remove the Berlin Wall of separation 
between Bosnians and strengthen the institutions that will make Bosnia 
a true unified state in the future.
    There is another issue that demands our attention in the Balkans, 
the status of Montenegro. The United States supports the Belgrade 
Agreement and the Serbia and Montenegro Constitutional Charter: 
Documents that present the opportunity for either republic to hold a 
referendum on leaving the state union. The United States will support 
whatever solution the two republics agree on through democratic means, 
whether that is union or independence. Montenegrin officials have 
indicated their desire to hold a referendum in 2006 on independence. I 
told President Djukanovic last month that any referendum must be held 
peacefully, and as the result of a process that all sides accept as 
legitimate. The overarching U.S. goal is reform and progress toward 
Europe for both Serbia and Montenegro, in or outside the state union.

                               CONCLUSION

    The people of the former Yugoslavia suffered through a decade of 
conflicts brought on by corrupt and cynical leaders who put their own 
power, greed, and ethnic hatreds ahead of the interests of the people. 
From the ashes of the wars of the 1990s there is now new hope emerging. 
In my October visit to Sarajevo, Pristina, and Belgrade, I made a point 
of meeting with students in each city who will soon be the leaders of 
their countries and I found these meetings to be extraordinarily 
encouraging. In Sarajevo, we met with young Serbs, Croats, and Bosniaks 
who are working together to break down remaining ethnic differences. In 
Kosovo, I met with extraordinarily courageous high school students from 
Mitrovica. These Serbs and Albanians, separated by the physical bridge 
dividing their communities, are trying to create a virtual bridge of 
computer networks to unite them. I met with young Serbs at the Faculty 
of Economics in Belgrade who did not hesitate to express their 
commitment to justice, peace, and democracy for Serbia and the region. 
I was struck by the fact that in each of these three meetings, in three 
different places, these students, of all the people we met, were the 
most courageous in putting forward the proposition that people of 
different faiths and nationalities should be able to live together in 
the Balkans of the 21st century. I didn't hear this message from the 
political leaders, but I heard it loud and clear from the younger 
people. I hope that their voice and their vision of a more just and 
peaceful region will come to represent the future for Kosovo, for 
Bosnia-Herzegovina, and for Serbia and Montenegro.
    Mr. Chairman, thank you for the opportunity to speak with you 
today. I look forward to taking your questions.

    The Chairman. Well, thank you very much, Secretary Burns, 
for your testimony.
    The Chair will ask that we have a first round with 8 
minutes so that members can have questions and answers. Of 
course, we want to respect the fact we have a distinguished 
witness still to come and questions of him in due course.
    I will begin the questions, Secretary Burns, by combining a 
two-pronged question. The first part is, who should be at the 
table? In other words, should the Serbs represent themselves, 
the Kosovar Serbs, as opposed to being represented by Belgrade, 
or should there be some understanding of who is going to 
represent the interests of whom there?
    Second, after they get seated at the table, Serbian leaders 
generally have indicated that independence for Kosovo is a 
nonstarter, as I mentioned in my opening statement, but, 
nevertheless, a fair number of Kosovar Albanians maintain they 
will accept nothing less than independence. Can you sketch 
roughly how these talks are likely to go, what sort of threads 
there are to work with, given positions that seem to be highly 
polarized?
    Mr. Burns. Thank you, Mr. Chairman.
    First, I think you have asked the most pertinent political 
question and that is who is going to be party to these 
negotiations. It is still a little bit unclear. I have made two 
trips to the region in the last 4 months and in both of my 
trips, including the one most recently 3 weeks ago, it is clear 
to me the Kosovar Albanians will be there. Now, their challenge 
is to be unified and not to have a repetition of Rambouillet, 
when we saw four or five positions emerge from one delegation. 
We have told them that that is their great challenge if they 
want to achieve independence, to show that they have a unified 
political slate.
    The other party at the table will be the Government of 
Serbia and Montenegro, obviously, because the big question is, 
Will Kosovo remain part of that state, perhaps with greater 
autonomy, or will it achieve independence from it?
    The third party is the one where I think we are not quite 
sure how things are going to work, and that is the Kosovar Serb 
population. I met with some of the Kosovar Serb leaders in 
October. A lot of them would like to be at the table 
independently to represent themselves. Others have even 
suggested it might be good to have a united Kosovar team, 
Albanian and Serb together. I think the majority would say they 
probably ought to sit with the Serb and Montenegran Government 
of Prime Minister Kostunica.
    But it is a little bit unclear what the configuration of 
that table is going to be, and we told President Ahtisaari last 
week that will be one of his first challenges.
    I think, Mr. Chairman, you have asked another very good 
question. Your second question is, How is this all going to 
work? I think we assume that the international community, 
President Ahtisaari, the United States, the European Union, 
will have to be very actively engaged. While he will likely 
start with a few trips to the region in order to meet people 
and lay down some of the guiding principles for the talks, it 
is fairly clear to us that international ideas, options that we 
would put on the table as part of the international community, 
are going to be helpful to them in framing the choices that 
they have and also framing the kind of compromises they are 
going to have to make as they get closer.
    I was struck by something else in both Pristina and 
Belgrade. I told the Kosovar Albanian Team of Unity that they 
had to compromise. Senator Biden suggested this as well. They 
looked at me as if I had said something surprising. I said I 
could not see them attaining their objective without some 
compromise.
    They have to assure the minority population there is a 
future for that minority population. They have to assure them 
that their historical sites and churches are going to be 
respected. That was not the case a year and a half ago in March 
2004.
    One of the questions will be, If there is going to be a new 
state, should it have a military? I think most people would say 
probably not. We are probably going to have to see a period of 
time, whatever the outcome is, for NATO to provide security on 
the military side and for the United Nations to provide some 
kind of civil administration. Most people believe that the 
negotiations are going to focus on those issues.
    Let me just say, I failed--I should have mentioned this in 
my opening testimony. We are very proud of what American forces 
have done in Kosovo. We have 1,700 Americans there. They are 
mainly from National Guard contingents, currently from 
California. They have done a great job providing security. They 
are also rebuilding schools. They are reaching out to the 
community. We can be proud of them.
    The American commitment here to keep our military forces in 
place through these negotiations is going to be very important.
    The Chairman. Secretary Burns, you have mentioned potential 
roles for perhaps NATO and even the United Nations. What would 
be the role of the European Union in the event that 
negotiations progress toward some semblance of a future for the 
area? Do you believe the European Union will take a leading 
role in this situation and offer some continuity in the future, 
or what do you see the EU doing?
    Mr. Burns. Thank you, Mr. Chairman. I do think the European 
Union intends to play a very vigorous role here. First of all, 
at the end of these negotiations we hope that Serbia and 
Montenegro is going to be pointed toward future membership in 
the European Union. If they can arrest Mladic, we said we would 
accept them into the Partnership for Peace in NATO the next 
day. Certainly, looking far into the future, we see Serbia and 
Montenegro as the keystone state in the Balkans and we want 
them to be a member of NATO and the European Union.
    So I think as the Serbs sit down to calculate their 
interests at these negotiations, they need to see the result as 
serving this interest of EU membership in the future, NATO 
membership in the future. If they negotiate in the right way, 
in a constructive way, and if they are able to compromise 
themselves, I think that is one of the great advantages for 
them.
    For the Kosovars themselves, it is to find a way forward 
toward self-governance, greater self-governance, and it is to 
figure out this question of minority rights balanced by what 
the majority wants.
    So I do see the negotiations focusing on those questions. 
The EU has been a major contributor of economic funds for 
development. European troops are the majority of troops in the 
NATO force and will remain so. The Americans are a slim 
minority of the force. So we do count on the active involvement 
of the European allies.
    The Chairman. Hypothetically, is it conceivable that Kosovo 
could, in due course, become a member of the EU or NATO? This 
leaps ahead, I suppose, on the independence question or what 
the status may be, but is the state large enough? Is it doable? 
As you are offering incentives for the Serbs and Montenegro, 
what do you offer to the Kosovars?
    Mr. Burns. I think we will have to see what the outcome of 
the negotiations is. If the outcome is of an independent state, 
then, obviously, it should be, in my view, in the interest of 
both NATO and the European Union to see all the states of 
southeast Europe and the Balkans as tied to, associated with, 
both NATO and the European Union. The American view is--we are 
a member of only one of these institutions--that NATO's door 
should remain open and that our strategic aim--and this has 
really unified President Bush 41, President Clinton, and 
President Bush 43--should be to see all of Europe democratic, 
peaceful, united, and that these two institutions, NATO and the 
EU, should be the pillars of this community.
    So, yes; no state is too small to come into NATO. Iceland 
has 280,000 people; they are a member of NATO. Luxembourg has 
375,000 people; they are a member of NATO. Both are charter 
members of the NATO alliance.
    So part of what we have been saying to the parties, the 
Europeans and the United States Government, is if you negotiate 
constructively, if you are fair to the other partner, if you 
look at this as a win-win for both parties, your future can be 
association with the EU and NATO itself.
    The Chairman. Thank you very much.
    Senator Biden.
    Senator Biden. Mr. Secretary, I am not being solicitous 
when I say I am delighted, as my friend from Ohio said, that 
the administration has the team it has in place here, number 
one.
    Number two, I do not disagree with anything in your 
construct as you laid out how to view this. I would like to 
focus on two things that do not lend themselves to clear 
answers, but maybe you could give me your instinct. It seems--
when I was a kid in grade school, I was taught by the nuns. 
Every once in a while I would inappropriately--I know this will 
shock everyone--intervene in a dispute that was going on among 
my classmates and be told that I should stay after school for 
having done so.
    The nuns used to make you write on the board 300, 200, 500 
times, while they were cleaning up for the day, some saying. 
One I used to have to write quite often, when I would say: But, 
sister, I was--she would say: Joey, everyone can solve a 
problem except he who has it. That is the one I used to have to 
write 500 times.
    It seems to me that the path for the Kosovars, as well as 
Serbs within Kosovo, as well as Serbia, is pretty clear if you 
were to just sit down and analytically look at it. It is in 
everyone's interest, if, in fact, Belgrade does not insist 
upon, would support independence, and it seems it is, 
obviously, in everyone's interest if, in Pristina, the judgment 
was made there would be ironclad guarantees for minorities. It 
seems that that would open the door for both countries in ways 
that would provide a much, much, much more promising future for 
both countries.
    But I understand 800 years of history or longer and it is 
difficult. So my first question is--and it is going to sound, 
it will sound somewhat naive. There has now been a passage of 
time since the open and direct conflict. Do you get a sense 
that there is any softening at all on the part of the 
leadership, not the young people, on the part of the 
leadership, or a recognition that there are greener pastures if 
they yield on some things that were unthinkable to think about 
yielding on a couple years ago?
    I mean, has time made this more difficult or has time 
opened up additional opportunities for people to think somewhat 
differently about it? I realize that is a very, very broad 
question and maybe does not lend itself to a clear answer. But 
what does your instinct tell you?
    Mr. Burns. Thank you, Senator. I think it is a very good 
question because it really underlines the psychological 
elements of the situation there and of any outcome.
    I think that the 6\1/2\ years that separate them from the 
Kosovar war on the attempted ethnic cleansing of 1 million 
people, I think they have served to gradually bind up some of 
the wounds. There are people in Kosovo on the Serb and Albanian 
side arguing for a multiethnic society. There are Serb 
leaders--President Tadic is one of them, the President of 
Serbia, who is arguing for tolerance and arguing for a sense of 
modernity as the Serbs look at this question, and it is good to 
see that. But I must say there is too little of it. There is 
too little of it.
    When I sat down with Team of Unity, the five leading 
Kosovar Albanian politicians, not only were they arguing 
amongst each other, but they were not really willing at this 
point even to sit down face to face with the Serb leadership.
    Senator Biden. Let me ask you a second question. I am of 
the view, because I think it has had an impact, that 
international pressure--European, American, not just European, 
but pressure--matters to the parties here; that, given 
relatively stark alternatives as to what their future looks 
like, I think it gets the attention of those people who have 
been unwilling to yield sufficiently on the broader underlying 
concerns about retribution, what history dictates, what justice 
calls for, et cetera, the terminology I always get when I am in 
the region, although I have not been there--I have been there I 
think a dozen times, but I have not been there in the last 2 
years.
    So, is there an emerging or existing unanimity among the 
major--among the EU, the NATO members--and, obviously, we are 
included in the NATO piece--the United States, about what are 
sort of the basic nonstarters? One is no greater Albania. I 
mean, that is off the table. No change in borders if there is 
independence; ironclad commitment to minority rights that are 
enforceable; return of refugees. That is our position, the 
elements of our position, without dictating what outcome we are 
looking for.
    Is there pretty wide unanimity there or is there a 
continued existence of a feeling that I have gotten in European 
capitals, that an independent Kosovo, even with these 
guarantees where they do exist, is a nonstarter? There are a 
number of--there was and has been and continues to be--and I 
wonder what is happening in France now, whether it exacerbates 
it--there is, I believe, a European--I was going to say 
``bias''; that may not be the right word--a sort of a generic 
concern that exists in most continental European countries 
about the existence of essentially a Muslim state, a state that 
is not Muslim in terms of its constitution, but in terms of its 
population. There is this concern that is always expressed and 
it is always just beneath the surface, in my view.
    So tell me a little bit if you will, Nick, about European 
attitudes and how they may or may not differ, without 
mentioning any specific country, from our sort of bottom line--
no greater Albania in the future, territorial integrity, 
minority rights enforceable, return of refugees, among others?
    Mr. Burns. Thank you. Frankly, I think there is a great 
deal of international cohesion between the Europeans and the 
United States as we approach the negotiations. Just last week, 
we agreed on a set of guiding principles for these talks. We 
sent them to Kofi Annan, we sent them to President Ahtisaari. I 
sent them to the Serb leadership and the Albanian leadership, 
as we had chaired the--the United States had chaired the 
Contact Group meeting.
    You mentioned some of them, and there are others, and I can 
read them to you. I think that Russia, the European Union, 
NATO, and the other members of the Contact Group--Britain, 
France, Germany, Italy, the United States--have all agreed on 
these. That is a tremendous strength for these negotiations. 
The parties are not receiving mixed messages from the 
international community.
    To get to your second point, it is a very strong one. There 
is no country that is now saying that independence is a 
nonstarter. Countries are being very careful, as is the United 
States. We are trying very hard not to try to script these 
negotiations. We are not saying, as a government, which outcome 
we prefer. But we all understand that independence is an 
option, that continued autonomy or greater autonomy is also an 
option, and that it would be probably tactically very 
ineffective for the Contact Group to take a position at this 
stage. Better to let the parties argue that out, define their 
differences and then common ground. That will be our avenue to 
be effective in these negotiations.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Biden.
    Senator Hagel.
    Senator Hagel. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary. I would like to follow up on 
one of Senator Biden's questions, Secretary Burns, and you 
cover it in your statement that you present to the committee 
and you have mentioned it a couple of times this morning. I 
will read from your statement: ``In October I met with the 
Kosovar Albanian Team of Unity established by the President.'' 
It goes on. Then you say: ``As late as last week, there were 
troubling signs that Kosovo Albanian leaders are anything but 
united.''
    My question is--and again, you have developed that here 
this morning to some extent--where then will the openings come? 
Where are the prospects for a starting point to get to where 
they need to be, as you have laid it out very clearly to them?
    Mr. Burns. Thank you, Senator Hagel. I think there is some 
common ground. All these parties--the Kosovar Serbs, the 
Kosovar Albanians, the Government in Belgrade--understand that 
in its present state, Kosovo, is not an entity that can support 
itself. There is tremendous unemployment. People, young people, 
are leaving. There is no opportunity. There is no normal 
relationship of the people there with the rest of the outside 
world in terms of bank loans or association with the IMF or the 
World Bank or regional development banks.
    I think they all understand that, 6\1/2\ years after the 
war, it is time to get on and define the future status of this, 
of Kosovo, so that there can be some benefits to the people 
there, so that people have a sense of who they are and what 
their future is. That is common ground.
    There is also common ground in democracy. When you go to 
Belgrade and Pristina, they all want a democratic outcome. They 
do not want to see this province recede into some type of 
authoritarian state. They want to see democracy. I think we can 
take advantage of that common ground, we who will help in these 
negotiations, along with these guiding principles that we just 
talked to Senator Biden about, and I think that does provide 
some of the opening for this admittedly rather difficult 
negotiation, because these parties are separated and they are 
not talking to each other right now, and they are separated by 
1,000 years of history and they are separated by the horrific 
events of 7 years ago, and they remember them, obviously. So 
there is a lot of work that needs to be done.
    Could I say one more thing about the Kosovar Albanians just 
in response to your question, Senator? They need to be unified 
and they are not presently unified. They need to be willing to 
compromise and they have an aversion, they say, to that. Third, 
there can be no reverse ethnic cleansing. It would be a tragic 
irony if, after we saved, we helped to save, 1 million people 
from ethnic cleansing, some of those people and their leaders 
decide that they would as a political tactic in the 
negotiations try to drive the Kosovar Serbs out of Kosovo.
    What we have told them is that NATO is there and that NATO 
is going to maintain order and will use force if people use 
violence as a political tactic.
    Senator Hagel. Thank you.
    You also note in your statement--and I will read from the 
statement: ``Until the government turns over indicted mass 
murder Radko Mladic to The Hague, the United States will not 
agree to Serbia and Montenegro's participation in NATO's 
Partnership for Peace, which you have covered in your opening 
remarks as well.''
    My question is, Is that the only condition for NATO 
Partnership for Peace membership; turning over Mladic?
    Mr. Burns. From the American point of view, yes. Three 
years ago, NATO decided--and we were very much a part of this 
decision, Secretary Powell was--that we just could not see 
bringing Serbia and Montenegro into NATO as long as Mladic was 
at large. The Serbs will even tell you, the Serb Government 
will tell you, that until 2 years ago he was living on a Serb 
military base near Belgrade. For 8 years he was protected by 
the Serb state. Now they say he is at large.
    We think he can be captured or convinced to surrender 
voluntarily, and once they do that, once that happens, we said 
we would support the Serb Government for Partnership for Peace. 
That does not mean membership in NATO. It just means, as you 
know very well, the beginning stage of a relationship with 
NATO. That is their challenge.
    Senator Hagel. Thank you.
    Toward the end of your statement, you say: ``There is 
another issue that demands our attention in the Balkans, the 
status of Montenegro.'' Then you go on in that paragraph and 
say: ``Whether that is union or independence, Montenegran 
officials have indicated their desire to hold a referendum in 
2006 on independence.''
    Could you elaborate and define that for us as to the status 
and where you think that is going next year?
    Mr. Burns. Thank you, Senator Hagel. Yes; one of the 
complicating factors potentially in these Kosovo negotiations 
is that Serbia and Montenegro, the State Union, may face a 
political crisis of sorts. The Montenegrans, led by President 
Djukanovic, with whom I met in Belgrade, say that they want to 
have a referendum in 2006 on the independence of Montenegro. 
Now, the State Union Constitutional Charter does present that 
opportunity.
    I told President Djukanovic the United States does not take 
a position, does not have a position, we do not want to assert 
a position on this issue. This is really a question for Serbia 
and Montenegro to work out on its own. But the way you conduct 
any referendum if you decide to have one has got to be 
consistent with international norms. There has been lots of 
advice given to them by the Council of Europe, by the Venice 
Commission of the Council of Europe, and we think they should 
pay attention to that, so that any referendum, which would be 
very consequential, about independence truly reflected the will 
of the people and was unassailable in terms of the way that it 
was carried out.
    Senator Hagel. Thank you.
    Back to Kosovo, the question is this. Describe the 
strengths that you see currently in the Kosovo Government; 
within the institution, where are the strengths to build on? We 
have talked a lot about weaknesses and conditions. Then, maybe 
in addition to that, what additional external forces or 
assistance might be needed as these negotiations continue? But 
I'm particularly, to begin with, interested in your assessment 
of the strengths that we can work from that foundation.
    Mr. Burns. There are strengths in Kosovar society. There is 
no question that the great majority of people have a common 
vision of the future. There is no question that they understand 
that 2006 is the critical year for them. I think Dr. Rugova 
provides strength. He is a courageous man. He has said publicly 
that he has lung cancer. He is undergoing treatment for that 
cancer, and yet he is still active politically. We met with him 
3 weeks ago in his home. He is obviously ill.
    But it was his idea to form this Team of Unity. Just as at 
Rambouillet, his position has been that Kosovo cannot achieve, 
or should not try to achieve, a solution by violence. It should 
be by nonviolence, and there has to be unity. I think there is 
a chance that there will be unity.
    I have mentioned a lot, today, the need for unity because 
we are worried about the political dynamics in Pristina, and 
this is a very public way of communicating with them at a 
hearing like this. But I believe in the end that the political 
leaders of the Kosovar Albanian community will understand this 
is a supreme opportunity for them to convince the rest of the 
world that they are ready for self-government. That is what 
they want to prove and I think they can do that.
    There has also been a lot of very good work done in Kosovo 
to promote multiethnicity. There has been some good work done 
on refugee return. So there are strengths that we can build on.
    Senator Hagel. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Mr. Secretary, I join my colleagues in welcoming you here 
this morning. First of all, just some basic facts: What do you 
now estimate the population of Kosovo to be and how is it 
divided in ethnic terms?
    Mr. Burns. Senator, it is a little bit difficult to say 
exactly what the population is because of the dislocations of 
the last 7 years. But roughly 2 million people and most people 
assume that roughly 90 percent of the people who currently live 
there are Kosovar Albanians. Now, that does not take into 
account the many thousands of Kosovar Serbs who left after 
1999.
    Senator Sarbanes. So you estimate the current population 
would be about 2 million?
    Mr. Burns. Correct.
    Senator Sarbanes. 1.8 million of them are ethnic Albanians 
and 200,000 are ethnic Serbs?
    Mr. Burns. And these are very rough estimates, and I would 
be happy to follow up in written form and give you even the 
best specific estimates that we have.

    [The information referred to above was not made available 
before the printing of this hearing.]

    Senator Sarbanes. How many Serbs do you estimate have left 
Kosovo, that you just mentioned?
    Mr. Burns. Right.
    Senator Sarbanes. How large is that group?
    Mr. Burns. I would like to get back to you with a written 
answer because I do not want to mislead you as to the number. 
But a significant portion of the Kosovar Serb community left in 
1999 and in subsequent years until today, and when I was there 
a few weeks ago I was told by the Kosovar Serbs that there is 
still a net outflow of people from their community leaving 
Kosovo on a semipermanent or permanent basis.
    Senator Sarbanes. There is this regional grouping, the 
Southeast European Cooperation Process, comprised of other 
countries in the Balkans, and they not too long ago made a 
strong statement about some of the latest things that have 
happened there, in terms of attacks on religious institutions 
and so forth. Should they be involved in this consultative 
process that is going along?
    Mr. Burns. Yes; and I think they will be. I know that 
President Ahtisaari is going to represent the United Nations 
and so he wants to draw upon the influence and the ideas, not 
just of the Contact Group, the countries that I mentioned 
earlier, but also some of the neighbors. Certainly Macedonia 
has a lot to offer in terms of the experience that they have 
had in trying to promote multiethnicity. Greece is going to be 
very important and the Greek Ambassador, in fact, is here today 
in this room because of their historic involvement and also 
their trade and investment ties. Albanian is a country that 
will be important to shaping a final outcome.
    So, I think it is correct to assume that President 
Ahtisaari, and certainly we in our own capacity, will be 
reaching out to these neighbors of Kosovo.
    Senator Sarbanes. Do you think the Contact Group should 
consult and meet with the Southeast European Cooperation 
Process countries?
    Mr. Burns. I think it is a good idea to stay in touch with 
those countries. We do bilaterally. We, the United States, have 
in fact. I have had discussions with the Greek Foreign Minister 
as well as the Greek Ambassador to the United States about what 
our strategy is and what our hopes are. We are hoping that 
these countries will be involved.
    As to whether or not the Contact Group and the Southeast 
Europe Group should meet, that is a good idea. I have no 
objection to it whatsoever. It has not happened to date.
    Senator Sarbanes. Do you think it might contribute toward 
peace and stability in the region?
    Mr. Burns. I think that as we go through these 
negotiations--and nobody knows how long they are going to 
last--it is going to be important for the neighbors of Kosovo 
to be involved in giving their ideas and giving their support 
to the U.N. Special Negotiator; yes.
    Senator Sarbanes. Earlier you spoke about assuring the 
protection of minority rights. How do you assure the minority 
that their rights will be protected?
    Mr. Burns. Well, I think one common denominator of these 
negotiations will be that it is likely that, whatever the 
outcome, there will be a continuing need for an international 
security presence to provide that kind of assurance to the 
minority population over some period of time, that they can 
live there and not fear that they will be attacked, that their 
homes will be burned down, or they will be killed, as was the 
case in March 2004.
    Second, there is going to be some type of international 
civil administration, whether it is through the European Union 
or the concept of a high representative or U.N. involvement. I 
think both of those--there has to be remaining international 
institutional involvement beyond any settlement in my view to 
provide the kind of assurances to a minority, the Serb 
population, that they will need.
    Senator Sarbanes. The place was under U.N. administration 
and backed by NATO forces, right? Is that not the current 
state?
    Mr. Burns. That is right.
    Senator Sarbanes. And yet in March 2004 there was this 
desecration and destruction of all of these religious sites, 
and those forces were not able to prevent it. Now, on the basis 
of that quite recent history, what are the prospects for 
assuring that minority rights will be protected? It seems to me 
you are starting out on a path now to try to negotiate a final 
status. As I understand it, one of the principles you outlined 
was the protection of minority rights. How can you assure that, 
when very recent history was a clear demonstration of an 
inability to do that?
    Mr. Burns. You are correct, Senator, in my view that March 
2004 was a travesty. What happened is that the NATO forces
were ordered into the streets to protect the Serb homes and 
Serb churches that were under attack. Part of the NATO forces 
responded, did their job, and protected Serbs. Some stayed in 
their barracks.
    Why did they do that? Because they had what we call in NATO 
bureaucratic parlance, national caveats. The soldiers of 
certain NATO allies could not actually deploy until they had 
orders, not from the local NATO commander, but from their 
capitals. It was the delay in getting those orders, in some 
cases 24 to 48 hours, that meant that NATO did not do its job.
    That produced a crisis of sorts in NATO. I was at NATO at 
the time as Ambassador. We had to undergo a period of 
introspection about what went wrong. General Jones has now led 
over the last year and a half an effort to reform the NATO 
forces there, to remove all of those national caveats, and so 
he now can assure us, as he did NATO a couple of weeks ago, 
that if there is any act of political violence all the NATO 
troops involved will obey the orders of the local commander.
    So I think it is that credibility that is important, and 
the key to that is the presence of American forces and of the 
United States, because our credibility is quite high. Our 
troops, by the way, American troops, did go into the troops in 
March 2004 and they did their job.
    Senator Sarbanes. Let me ask one final question before my 
time runs out. The conflict there is seen through the prism of 
ethnic conflict, but there are extraordinarily difficult 
economic circumstances, which some, at least, think also 
contribute to the confrontation and the difficulties. What are 
the economic prospects for Kosovo?
    I am told that the unemployment level may be as high as 50, 
60 percent. There are differing estimates, but everyone seems 
to agree that it is close to a basket case economically. What 
is going to happen on that front?
    Mr. Burns. Oh, I think it is one of the great challenges of 
these upcoming negotiations. There is going to have to be a lot 
of talk about how a future Kosovo, whatever the outcome is, is 
going to survive economically. There is a tremendous amount of 
lignite there. There are some raw materials that can be 
exploited on a profitable basis.
    Very important to increase the trade and investment ties, 
particularly Greece, which is a leading investor, and some of 
the other regional countries, and also some of the countries of 
the former Yugoslavia, Slovenia, Slovakia. Germany is going to 
be very important. This is not going to be easy. There are no 
easy fixes to cure the massive economic problems that Kosovo 
has.
    Senator Sarbanes. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I admire what you are doing in 
difficult circumstances, and you bring a priority on this area 
traveling there twice recently. So I applaud what you are 
doing.
    My question is, In your prepared statement you said that 
the status quo in Kosovo is neither sustainable nor desirable. 
But Ambassador Holbrooke, if I can steal from his statement, 
said that prior to the Dayton Accords 300,000 people had died 
and over 2.5 million people had been made homeless by the worst 
war in Europe in 50 years, but in the 10 years since Dayton not 
one American or NATO soldier has been killed or wounded from 
hostile action. Not one has been killed or wounded from hostile 
action.
    So why is the status quo not sustainable nor desirable? 
Where is the pressure to make changes?
    Mr. Burns. Thank you, Senator. I agree with Ambassador 
Holbrooke, the record of American and NATO involvement in 
Bosnia-Herzegovina is extraordinary in terms of the NATO 
peacekeeping effort and the record that he talked about and you 
just quoted.
    I would say this. The status quo cannot be sustained 
because the people of Kosovo will not let it. Kosovo in most 
people's view is a political pressure cooker. Ninety percent of 
the people say they want one thing, 10 percent say they want 
something else.
    It is not desirable because we agreed in June 1999 when we 
passed U.N. Security Council Resolution 1244 that we had to get 
to this issue of what the future is. We decided to put it on 
ice, to have things calm down, tempers and passions cool, to 
work on this issue of standards, readying themselves for a 
future.
    It has been 6\1/2\ years and I think it is the political 
insight of nearly everybody with whom I have talked from every 
country, whether it is Russia or any European country, that we 
now have to--they have to face this question and we have to let 
them face this question of what their future is.
    We saw an explosion of sorts in March 2004 and that is 
another reason why it is not sustainable. NATO, in a very 
haphazard way and somewhat ineffectively, was able to keep the 
peace in March 2004. We do not want to see that kind of 
violence again. So that is why we are imbued with this thought 
that we have to get on with negotiations to define its future.
    Senator Chafee. It seems as though that--you mention in 
your statement that in your trips there you talk about 
independence. You say--let us see if I can get it here: ``If 
the Kosovo Albanians aspire to independence, this is the 
greatest opportunity to make their case to the world that 
should they become independent they will be able to govern 
effectively, in a way that promotes stability in the region.'' 
You go on to say that: ``I made it clear to them that 
independence must be earned,'' and yet it must be a nonstarter 
for the Serbs.
    So back to my original question, it seems as though any 
movement forward is hazardous. Would you agree?
    Mr. Burns. Oh, I think these are going to be extremely 
complicated and divisive and difficult negotiations. There is 
no question about it. This is about as difficult a set of talks 
as you can imagine diplomatically. On the other hand, I think 
nearly everyone agrees that if we do nothing, if our message to 
the Kosovar population was, your situation is going to be 
frozen for the next decade, that would produce change on the 
ground that we would not like to see. It would most likely 
produce--I would not want to ever predict this, but most people 
believe it would produce a period of instability and probably 
of violence.
    So you have these difficult choices about whether or not 
you go ahead. What is remarkable--and this gets back to Senator 
Biden's question--is that there is a lot of unity in the 
international community. I sat with the Contact Group last 
week. I hosted them here in Washington. The Russians, the 
French, the Germans, the British, the Italians, the Americans, 
NATO, the European Union, and the United Nations all agree that 
we now have to let them face this question of what their future 
will be and they have to decide it.
    Senator Chafee. You also talked about the students and your 
meeting with the students. I was struck by the fact that in 
each of these three meetings in three different places these 
students, of all the people you met, were the most courageous 
in putting forward the proposition that people of different 
faiths and nationalities should be able to live together in the 
Balkans in the 21st century. I did not hear this message from 
the political leaders, but I heard it loud and clear from the 
younger people. There is another--maybe--piece of evidence that 
maybe if we wait for this new generation to assume leadership 
roles maybe the status quo is not so bad.
    But I hear what you are saying, that the people of Kosovo 
just cannot be put on ice for another 10 years.
    Mr. Burns. There was a striking contrast between our 
meetings with these young students in each place and the 
meeting with the political leadership, striking, because a lot 
of these young kids are able to face squarely the past. A lot 
of the Muslims and Serbs want to reconcile with each other. In 
Mitrovica, which is the great example of the division of 
Kosovo--it is a divided city, divided by a river and a bridge, 
the Serbs on the north side, the Muslims on the south. The 
Muslim cemetery is in the north, the Serb cemetery is in the 
south. These young kids have taken it upon themselves to unite 
to provide security for people who want to visit the cemetery. 
So you are a Muslim, you get a Serb person, Serb men, helping 
you to go and visit the graves of your ancestors on the north 
side of town, and vice versa.
    They have computer networks. They are the ones leading. 
They are showing that multiethnicity can work. The reason I 
mentioned that in my testimony is that I think that is the 
fundamental challenge that the older generation, people our 
age, people who are in charge there, face, to understand that 
there is only one way forward and that is for Serbs and 
Albanians to live together in Kosovo.
    Senator Chafee. Thank you, Mr. Secretary.
    Mr. Burns. Thank you very much.
    Senator Chafee. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    One of the things that I was impressed with when Ms. 
DiCarlo visited our office is that there were certain 
principles that everyone has agreed on: There will be no return 
to the pre-1999 conditions in Kosovo; there will be no 
partition of Kosovo; there will be no changing borders in the 
region, i.e., Kosovo cannot join Albania, any advocate of 
violence will be prohibited from participating in the status 
talks, if any participant walks away from the negotiations for 
any reason the negotiations will continue without them. So 
everyone has agreed to that, is that right?
    Mr. Burns. Well, the United States and our international 
partners agree to that and we hope the parties will agree to 
it, too. We cannot see any possibility of a change of borders 
in the Balkans. That would establish a precedent that would be 
quite dangerous for the future. We cannot see partition as a 
possibility, either. So those are the guiding principles that 
we have put down and we hope very much that the parties will 
agree to them.
    Senator Voinovich. Do you really believe that the Europeans 
understand how important this is to finally integrating 
southeast Europe into Europe in terms of something that we have 
talked about? I mean, I always talk about the Balkans is the 
barking dog of foreign policy. It barks and people do something 
about it, and then things go back to the way they were before, 
and then it barks again.
    Do they understand this is an absolute wonderful 
opportunity, maybe the last opportunity they have got, to 
really bring these folks into Europe?
    That is one question. The other is, Do they also understand 
the fragility of how this has got to be handled? Because if it 
is done wrong, as I mentioned in my remarks, you are going to 
allow the Serbian nationalists to exploit the situation for 
their political purposes. I just wonder, do the Europeans 
understand that and, by the way, do the Kosovars understand 
that--that in terms of how this is handled it is going to have 
a lot to deal--a lot to do with whether or not they are going 
to have the democratic leadership in Serbia-Montenegro, and 
that if it fails, that these other people are successful, that 
the situation will be far worse than it is today, because they 
will continue this ongoing debate that has gone on for 
centuries about what happens to Kosovo?
    Mr. Burns. Senator, I do think the Europeans understand the 
opportunity here. You remember after the failed referenda in 
the Netherlands and in France in the spring there was a lot of 
speculation that Europe would trim its ambitions to enlarge the 
European Union. Xavier Solana and Jean-Claude Junker, the Prime 
Minister of Luxembourg, came directly, following those 
referenda, to the United States and met with President Bush and 
they said there are going to be a lot of questions about what 
Europe is and how far European Union goes to expand, but that 
is not about the Balkans. They said: We are convinced that the 
Balkans are the heart of Europe and that we in Europe have an 
obligation to help the Balkan countries, particularly Serbia-
Montenegro, Kosovo, and Bosnia, to become attached to Europe 
and to the European Union.
    So you have seen an association agreement now between 
Serbia-Montenegro and the European Union just in the last 
month. That is very positive. You have seen the EU reach out 
with lots of money to underwrite economic development, and in 
both Bosnia and Kosovo the EU countries, the European members 
of NATO, are providing the vast majority of troops.
    But I think you put your finger on something that we have 
not talked much about this morning and that is Serbia-
Montenegro. That is the key country in the region. That is the 
country that is trying to find its way forward after the 
assassination of Prime Minister Djindjic toward a better 
future. And if the result of these Kosovo talks can be that 
Serbia-Montenegro is assured a place in association with the EU 
and if they can work on their relationship with NATO by 
arresting Mladic, this need not be, these negotiations, any 
kind of defeat for the Serbs or for Serbia-Montenegro. In fact, 
it is in our interest to see Serbia-Montenegro strengthened 
ultimately as a result of all these changes over the last 10 or 
15 years in the Balkans, because it is such an important state 
for the future unity of the region.
    Senator Voinovich. Do the Kosovars understand how fragile 
these are--these talks are--in terms of the political 
situation? I mean, when you come to a negotiation there has got 
to be some kind of incentives. What are the incentives to the 
Kosovars to work something out? What are the incentives to the 
Serbs to work things out? Would one of their incentives be that 
you would have people that are committed to democracy in Serbia 
that want to move forward and enlightened and that if it does 
not work that you are going to get bad people? I mean, do they 
get it? Do you think that Rugova and the rest of them get it?
    Mr. Burns. I think the enlightened Kosovar Albanian leaders 
understand that they have to live next door to Serbia and 
Montenegro for the whole rest of Kosovo's history, and so, 
therefore, there has to be some kind of rapprochement between 
the Albanian and Serb populations in the future.
    The incentive for the Kosovar Albanians is they cannot 
achieve what they desire until they prove to the international 
community that they are capable of the self-government that 
they say they want, and that does entail unity. The incentive 
for the Serb Government should be that they want to have 
strategically a better relationship with NATO and the European 
Union. That is what Prime Minister Kostunica has told me and 
others. That is what President Tadic has said.
    If you build those incentives into these negotiations, then 
you can begin to see your way toward a successful negotiation 
in 2006, and that is very much a part of the approach that we 
have, we Americans, to these negotiations.
    Senator Voinovich. Do you think that the Kosovars 
understand how important the religious sites are to the Serbs; 
it is a symbol, that if they were guaranteed that these shrine 
sites would be preserved and not destroyed, how much that would 
mean in terms of their ability to move forward with 
negotiations in terms of their status?
    Mr. Burns. Well, I think actually this is a very important 
issue for the negotiations, the protection of churches, 
historical sites, and patrimonial sites, because, obviously, 
the extremists on the Kosovar Albanian side want to erase Serb 
history in Kosovo. That is why they attacked the churches and 
burned them down in March 2004. It is in our self-interest to 
protect those sites because we cannot see a future of Kosovo 
without Serbs living in it.
    Senator Voinovich. How is the rebuilding coming? We had a 
problem there with Bishop Artemije and now the Serbian Orthodox 
Church has gotten more involved. Are they moving forward with 
the restoration of those churches now?
    Mr. Burns. It is hit or miss, and I would be happy to get 
you a written report on this. But there had been some problems 
in the wake of the violence in reconstruction. But now we have 
been able to reconstruct some of the homes. In fact, I visited 
one of the homes in Obelic that had been reconstructed. And we 
are doing work on churches, we the international community. It 
is terribly important to do that.
    Senator Voinovich. Well, I wish you good luck and we will 
certainly do what we can to be supportive.
    Mr. Burns. Thank you.
    The Chairman. Thank you very much, Senator Voinovich.
    I have no further questions. Senator Biden, do you have 
additional questions?
    Senator Biden. I have no further questions.
    The Chairman. Senator Hagel.
    Senator Hagel. No.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. No, Mr. Chairman.
    The Chairman. Senator Chafee.
    Senator Chafee. No, thank you.
    The Chairman. Senator Voinovich, do you have additional 
questions?
    Senator Voinovich. No.
    The Chairman. We thank you very much for your statement and 
for your testimony and for your very forthcoming responses to 
our questions. It is always great to have you. Thank you, 
Secretary Burns.
    Mr. Burns. Thank you.
    The Chairman. The chair would now like to call Ambassador 
Holbrooke to the table for his statement.
    [Pause.]
    The Chairman. Ambassador Holbrooke, it is a privilege to 
have you with the committee again. We look forward to your 
testimony. As I have indicated to Secretary Burns, your full 
statement will be made part of the record. You may proceed as 
you would wish and then the committee would like to ask 
questions of you. Please proceed.

STATEMENT OF HON. RICHARD C. HOLBROOKE, VICE CHAIRMAN, PERSEUS 
                      LLC, WASHINGTON, DC

    Mr. Holbrooke. Thank you, Mr. Chairman. What a great honor 
to be back before this committee, which I first testified 
before in 1977, and especially to appear today on this very 
important subject and before so many friends and associates.
    Allow me to begin with a very brief reminiscence. Ten years 
ago today I was at the Wright-Patterson Air Force Base in 
Dayton, OH, on the 8th day of the 21-day negotiation that 
brought the war in Bosnia to an end. I am accompanied here 
today by several of the veterans of that negotiation, including 
the previous witness. The route to get there had been tortuous 
and the end came only after about 300,000 people had been 
killed, over 2.5 million made homeless by the worst war in 
Europe in 50 years.
    Decisive American action had been slow and two 
administrations had failed to take sufficient action to stop 
the conflict, leaving the primary responsibility in the hands 
of the European Union and the United Nations, both of which had 
utterly failed in the first significant post-cold-war test.
    During that long bleak period, members of this particular 
committee, including Chairman Lugar and its ranking minority 
member, Senator Biden, had pressed the case continually for 
active American action. I remember especially, Mr. Chairman, 
coming before this committee for confirmation as Assistant 
Secretary of State for European Affairs in 1994. Prior to that 
hearing I met privately with Senator Biden in a room off the 
Senate floor and he delivered one of those warnings that most 
of you in this room are quite familiar with. While Senate rules 
of decorum prevent me from repeating verbatim what Senator 
Biden said that day, I can tell you that he was scathing in his 
denunciation of American inaction and lack of leadership, he 
was precise in his description of the situation on the ground, 
he was visionary in his prescription of what had to be done to 
stop the war, and he was very explicit in his references to 
which part of my anatomy I would lose if we did not do 
something about it.
    Dayton ended that war and I think that Senator Biden and 
the rest of you should be pleased at your own unique role in 
that process. One of the many lessons of the negotiation, one 
that Senator Biden and you and the rest of you, but especially 
Senator Biden in my own experience, was so forceful in putting 
forward, as he has done again in Iraq: The absolute necessity 
of strong American leadership, which Under Secretary Burns just 
alluded to.
    I would also add one lesson from Bosnia and Kosovo that was 
not applied in Iraq, with tragic consequences. We took to 
Dayton a 200-page peace plan, much of which was drafted by my 
colleague, Roberts Owen, our legal adviser, who is here with us 
today. It contained detailed documentation covering every 
aspect of the post-war period, from giving authority to the 
military to shoot first and ask questions later, to 11 detailed 
annexes on political and economic and social issues. Dayton was 
not perfect, far from it. But it ended the war and, as Senator 
Chafee has already quoted, contrary to every prediction, there 
were no American or NATO casualties.
    Today, out of the 20,000 soldiers we sent to Bosnia in 
1996, only about 150 remain. But they are an essential reminder 
that we will remain engaged.
    So I want to thank my friend, Senator Biden, you, Mr. 
Chairman, and my other friends and colleagues on this committee 
for their support and their encouragement in the last decade. I 
hope you feel that, however imperfectly and belatedly, we 
achieved the lofty goals that you set out for us and that 
Senator Biden did not, therefore, have to relieve me of any 
body parts.
    I also should make a footnote that my association with 
Senator Voinovich did not date to that period, but in a 
subsequent period of service we also had extensive talks on 
these issues, and I am most grateful to you for your advice and 
support as well, sir.
    On a personal note, 10 years ago today as I was at Dayton 
my friend and then colleague, Nick Burns, who was then 
Secretary of State Warren Christopher's spokesman, was flying 
back to Dayton with his boss, Warren Christopher, for one of 
the four trips he would make to the negotiating site. Nick, 
whom I consider one of the outstanding diplomats of modern 
American diplomacy, was not only a frequent visitor to Dayton--
you can leave now, Nick; that is the end--was not only a 
frequent visitor to Dayton, he was also the only person in 
Dayton or Washington authorized by all the parties to speak on 
the record about what was going on.
    This experience 10 years ago has been critically important, 
I believe, in preparing him for the extremely important 
assignment that Secretary Rice gave him to oversee American 
policy toward the Balkans. I am very pleased, therefore, that 
Nick Burns has, at Secretary Rice's direction, reengaged 
American policy in the Balkans after 4 years of drift and 
neglect that was at times hardly benign.
    Under their guidance--that is, of Secretary Rice and 
Secretary Burns--a plan to mark the 10th anniversary of Dayton, 
November 21, with a series of improvements on the original 
agreement has been put into place. These improvements are long 
overdue. Police and military reform, movement to a single 
Presidency, a reconciliation mission, and others are under way, 
and they have my full support, and there is hardly a word in 
Nick Burns's testimony that I would disagree with, although as 
a private citizen, Mr. Chairman, I am free to go slightly 
further than he has in regard to Kosovo.
    There, Ambassador Burns has undertaken an even more 
daunting task. For if the war in Bosnia is truly over and will 
not resume, this cannot be said of Kosovo. War could break out 
there at any time and it would be a bloody, bloody event. 
Tensions between the two main ethnic groups are as high as 
ever. The loss of 4 years pursuing a failed U.N.-EU-U.S. theory 
called ``standards before status,'' which was really, as 
Senator Biden said already, kicking the can down the road, a 
way of avoiding action, that 4 years is irretrievable.
    During that time ethnic tensions rose, real opportunities 
were missed, and events removed or weakened two of the leading 
political figures in the region, the late Serbian Prime 
Minister Zoran Djindjic, who was assassinated by paramilitary 
thugs, and Kosovo President Ibrahim Rugova, who, as you have 
already heard from Secretary Burns, is now seriously ill.
    Now, ``standards before status'' has finally been removed 
as an obstacle to progress in implementing U.N. Resolution 
1244, which called for these final status talks. The delay was 
costly, as I have said, but it is time to get on with it and 
this hearing today I hope launches an intense period of effort 
in that area.
    I am pleased that Secretary Kofi Annan has appointed Martti 
Ahtisaari as negotiator and I look forward to the appointment 
in the near future of an American of comparable rank. It will 
be a difficult task, but it is essential to start.
    Now, official negotiators cannot, of course, proclaim in 
advance to the outcome of a negotiation. That violates all 
negotiating procedures, and I greatly respect and admire the 
skill with which Secretary Burns dealt with those questions 
when you asked them. But I feel that I owe it to you as your 
friend and as a private citizen to give views which are only 
mine, and mine alone, to answer the questions you have already 
raised.
    In that spirit, let me be clear. I do not see any final 
status for Kosovo other, ultimately, than independence. But at 
the same time--and this must be stressed equally--this cannot 
be achieved without ironclad guarantees for the safety, 
security, and protection of the rights of the Serbs who live in 
Kosovo, the protection of their magnificent religious and 
cultural and historic monuments, and all the other guarantees 
that they are due.
    While I have said this in the past frequently, whenever I 
have said it, each side has characteristically quoted only half 
my statement. So let me repeat: Kosovo's destiny, in my view, 
is an independent state, but it will not get there unless its 
Serb minority can live in peace with ironclad guarantees with 
the Albanian majority.
    For the long-oppressed Albanian majority, this would 
finally rectify, in their view, the events of 1911-12. But 
independence cannot come simply to replace one form of 
oppression with another, the reverse ethnic cleansing which 
Nick Burns already alluded to. Would independence for Kosovo be 
accompanied by another bloodbath, this time of the Serbs? We 
cannot let this happen.
    I said things along these lines in Pristina less than 2 
years ago and repeated them in the Wall Street Journal. I was 
roundly attacked by the Serbs and the Albanians deliberately 
ignored the part of my comments concerning minority rights. 
This is to be expected in any situation as fraught with history 
and hatred as Kosovo. Think of Kashmir, the Middle East, Aceh, 
Sri Lanka, and so on.
    But there is really no other choice if we are ever to get 
to the end of this expensive process without further bloodshed, 
and there is really no choice unless we want to have American 
and NATO troops in Kosovo indefinitely.
    But whatever happens in the negotiations now about to 
begin, a residual international security force will be 
necessary in Kosovo. I believe that this is an appropriate 
function for NATO and that any international contingent should 
include American troops. That is the lesson of Bosnia and 
Kosovo over the last decade.
    I know that there are those in the United States Government 
who have questioned this view, especially given the 
overwhelming troop requirements in Iraq and Afghanistan. But 
precisely because we must show the world we do not abandon our 
commitments, we must finish the job. If we do not, the 
subsequent costs will be even higher. War could resume and what 
was done so far will have been wasted.
    One last point, Mr. Chairman: The European Union. The long-
range goal, which addresses several questions already asked, 
should be the full integration into a unified Europe of the 
entire Balkans, including Serbia, Bosnia, Albania, Montenegro, 
which I believe is probably a separate country in the long run, 
but that is their decision to make in accordance with the 
procedures that Secretary Burns discussed, and Macedonia and 
Croatia.
    Nothing would do more for expanding the zone of freedom and 
democracy eastward, a historic necessity of the highest order. 
Vast economic benefits flow to the region from such events, and 
I wish to stress in response to the questions about the 
economic mess in Kosovo that these opportunities would 
proliferate if peace were brought to the region and the 
beneficiaries would be first of all Serbia, second Greece, and 
third all of Southeastern Europe, because a subunit, a common 
market, eventually moving to EU membership, would link Greece 
with the rest of the European Union in a very productive 
manner.
    But to get there will take time, as it also will with 
Turkey. And the European Union should not--I repeat, not--give 
away movement toward membership for too low a price, as they 
have sometimes done in the past. The standards of the European 
Union should not only be maintained, they should be used as 
leverage and incentive for the reforms needed in every one of 
these countries on such critical issues as war criminals, 
especially of course Karadic, Mladic, and Gotovina, a single 
Presidency, respect for individual and group rights, press 
freedom, viable and transparent governments, and so on.
    I hope that the Congress, led as always by this great 
committee, will take the lead in supporting American 
reengagement in the process and that it will indicate its 
support for a process that gives true self-determination, 
security, and respect for individual and group rights to all 
the people of Kosovo.
    Thank you, Mr. Chairman, for this opportunity to appear 
before you today.
    [The prepared statement of Mr. Holbrooke follows:]

Prepared Statement of Hon. Richard C. Holbrooke, Vice Chairman, Perseus 
                           LLC, New York, NY

    I am deeply honored to be here, before your committee once again, 
and to appear before so many friends and associates.
    Allow me to begin with a brief reminiscence. Ten years ago today, I 
was at the Wright-Patterson Air Force Base in Dayton, OH, in the 8th 
day of the 21-day negotiation that brought the war in Bosnia to an end. 
The route to get there had been tortuous, and the end came only after 
almost 300,000 people had died, and over 2,500,000 people had been made 
homeless, by the worst war in Europe in 50 years. Decisive American 
intervention had been slow, and two administrations had failed to take 
sufficient action to stop the conflict, leaving the primary 
responsibility in the hands of the European Union and the United 
Nations, which had utterly failed this first significant post-cold-war 
test. During that long, bleak period, members of this committee, 
including its current chairman, Senator Lugar, and its ranking minority 
member, Senator Biden, had pressed the case for American action. I 
remember especially coming before this committee for confirmation as 
Assistant Secretary of State for European Affairs in 1994. Prior to 
that hearing, I met privately with Senator Biden in a room off the 
Senate floor, and he delivered one of those warnings that most of you 
in this room are quite familiar with. While the Senate rules of decorum 
prevent me from repeating verbatim what Senator Biden said that day, I 
can tell you that he was scathing in his denunciation of American 
inaction and lack of leadership; precise in his description of the 
situation on the ground; visionary in his prescription of what had to 
be done to stop the war; and very explicit in his references to which 
part of my anatomy would be lost if I did not do something about it.
    Dayton ended that war, and among the many lessons of that 
negotiation is the one that Joe Biden was so forceful in putting 
forward, as he has done again in Iraq: The absolute necessity of strong 
American leadership. I would also add one lesson from Bosnia and Kosovo 
that was not applied in Iraq, with tragic consequences: We took to 
Dayton a 200-page peace plan, with detailed documentation covering 
every aspect of the post-war period from giving authority to the 
military to shoot first and ask questions later, to 11 detailed annexes 
on political and economic issues. Dayton was not perfect--far from it--
but it ended the war, and contrary to almost every prediction, there 
were no American or NATO casualties. I repeat: In the 10 years since 
Dayton, not one American or NATO soldier has been killed or wounded 
from hostile action. Today, out of the 20,000 soldiers we sent to 
Bosnia in 1996, only about 150 remain, an essential symbolic reminder 
that we will remain engaged.
    So I want to thank my friend, Joe Biden, and his colleagues, for 
their support and encouragement that day and beyond. I hope you feel 
that, however imperfectly and belatedly, we achieved the lofty goals 
you set out for us, and that Senator Biden did not, therefore, have to 
relieve me of any body parts.
    On another personal note: 10 years ago today, as I was at Dayton, 
my friend and colleague, Nick Burns, then the Secretary of State's 
spokesman, was flying back to Dayton with his boss, Warren Christopher, 
for one of four trips he would make to our negotiating site. Nick, whom 
I consider one of the outstanding diplomats of the current generation, 
was not only a frequent visitor to Dayton--he was also the only person, 
in Dayton or Washington, authorized by all the parties to speak on the 
record about what was going on. This experience 10 years ago has been 
critically important, I believe, in preparing him for the important 
assignment that Secretary Rice gave him when he became Under Secretary 
of State, to oversee American policy toward the Balkans.
    I am very pleased, therefore, that Nick Burns has, at Secretary 
Rice's direction, reengaged American policy in the Balkans after 4 
years of drift and neglect that was, at times, hardly benign. Under 
their guidance, a plan to mark the 10th anniversary of Dayton, November 
21, with a series of improvements on the original agreements. These 
improvements are long overdue, such as police and military reform, 
movement toward a single Presidency, reconciliation commission--are 
finally underway. They have my full support.
    In Kosovo, Ambassador Burns has undertaken an even more daunting 
task. For if the war in Bosnia is over and will not resume, this cannot 
be said of Kosovo. War could break out there at any time. Tensions 
between the two main ethnic groups are as high as ever. The loss of 
four vital years pursuing a failed U.S.-EU-U.N. theory called 
``standards before status''--which was really a way of avoiding 
action--is irretrievable. During that time ethnic tensions rose, 
opportunities were missed, and events have removed or weakened two of 
the leading political figures in the region--the late Serbian Prime 
Minister, Zoran Djinjic, who was assassinated, and Kosovo President 
Ibrahim Rugova, who is now ill with a serious disease.
    Now, ``standards before status'' has finally been removed as an 
obstacle to progress in implementing U.N. Security Council Resolution 
1244 of 1999, which called for final status talks. The delay was, as I 
have said, costly, but now it is time to get on with it.
    Where do we go from here? I am pleased that U.N. Secretary General 
Kofi Annan has appointed Martti Atissari, former President of Finland, 
as his negotiator to resolve the final status of Kosovo. I look forward 
to the appointment in the near future of an American of comparable rank 
to ensure that progress is made.
    This will be a difficult task, but it is essential to start. The 
end result is one that official negotiators cannot, of course, proclaim 
in advance; no good negotiator would do so. But outside observers, 
especially when appearing before the U.S. Congress, have an obligation 
to speak the truth as they see it. In that spirit, let me be clear that 
I cannot see any final status for Kosovo other than independence, but 
at the same time--and this must be stressed equally--this cannot be 
achieved without ironclad guarantees for the safety, security, and 
protection of the rights of the Serbs who live in Kosovo. When I have 
said this in the past, each side has, characteristically, quoted only 
half of my statement. So let me repeat: Kosovo's destiny is as an 
independent state, but it will not get there unless its Serb minority 
can live in peace with the Kosovar Albanian majority. For the long-
oppressed Albanian majority, this will finally rectify the events of 
1911, and this is a historic necessity. But independence cannot come 
simply to replace one form of oppression with another. Will 
independence for Kosovo be accompanied by another bloodbath, this time 
of Serbs? We cannot let this happen.
    When I said things along these lines in Pristina 2 years ago, and 
repeated them in an article in the Wall Street Journal, I was roundly 
attacked by the Serbs. And the Albanians ignored the parts of my 
comments concerning minority rights. This is to be expected in any 
situation as fraught with history and hatred at Kosovo; think of 
Kashmir, the Middle East, Aceh, Sri Lanka, and so on. But there really 
is no other choice if we are ever to get to the end of this expensive 
process without further bloodshed.
    Whatever happens, a residual international security force will be 
necessary in Kosovo. I believe that this is an appropriate function for 
NATO, and that any international contingent must include American 
troops. That is the lesson of Bosnia and Kosovo over the last 10 years. 
I know that there are those in the U.S. Government who have questioned 
this, especially with the overwhelming troop requirements in Iraq and 
Afghanistan. But precisely because we must show the world that we do 
not abandon our commitments, we must finish the job. And, if we don't, 
the subsequent costs will be even higher, and what was done so far will 
have been wasted.
    One additional point: The European Union. The long-range goal 
should be the full integration into a unified Europe of the entire 
Balkans, including Serbia, Bosnia, Albania, Montenegro (as, I believe, 
a separate country, but that is their decision to make), Macedonia, and 
Croatia. Nothing would do more for expanding the zone of freedom and 
democracy eastward, a historic necessity of the highest order. Vast 
economic benefits can flow to the region from such events. But to get 
there will take time, as it will also with Turkey. And the European 
Union should not--I repeat, not--give away moves toward membership for 
too low a price, as they have sometimes done in the recent past. The 
standards of the European Union should not only be maintained, they 
should be used as leverage and incentive for the reforms needed in 
every one of these countries on such critical issues as war criminals 
(especially, of course, Karadzic, Mladic, and Gotovina), a single 
Presidency, respect for individual and group rights, press freedom, 
viable and transparent governments, and so on.
    I hope that the Congress, led as always by this committee, will 
take the lead in supporting American engagement in the process, and 
that it will indicate its support for a process that gives true self 
determination and security to all the people of Kosovo.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today.

    The Chairman. Well, thank you very much, Ambassador 
Holbrooke.
    Let me suggest again a round of 8 minutes. That will take 
us very close to the party policy luncheon time. We hopefully 
will not have interruptions of rollcall votes and will be 
spared those interruptions at this point.
    I would like to commence the questioning, Ambassador 
Holbrooke, by picking up on your point about other countries in 
the region. Discuss in the same candor what is likely to happen 
with regard to Montenegro and its plans to hold a referendum on 
independence in 2006 and Bosnia's ongoing efforts to redefine 
its structures. Could Macedonia be destabilized by the Kosovo 
status process as it proceeds now?
    Mr. Holbrooke. For over a decade, Mr. Chairman, the Balkans 
have been paralyzed, and particularly outside negotiators have 
been paralyzed, by the fear that action in one area could 
trigger reaction in another and we would have an August 1914 
scenario. That is because, as we all know, every ethnic group 
is a minority in one area and a majority in another. You have 
just mentioned two of the most critical, Montenegro and 
Macedonia. We constantly hear that if Kosovo becomes 
independent or if Montenegro becomes independent it will 
trigger an upsurge of separatism among, in Srbska, in Bosnia.
    I do not share that view, Mr. Chairman, because of history. 
If the American Government will take the lead--and today what 
you have heard is, I think, some of the most important 
testimony in the last 4 years showing that the U.S. Government 
is now taking the lead again, and I am so pleased to support 
them completely in what they are doing without reservation or 
any partisanship--I think that can be avoided.
    Now, in regard to Montenegro, a few years ago, under 
European Union pressure, Serbia and Montenegro were linked into 
a country called Serbia and Montenegro, not Serbia-Montenegro, 
but Serbia and Montenegro, in other words a country called 
``SAM.'' This country replaced a country called Yugoslavia, 
which no longer existed. SAM exists on paper. One-half of it is 
11 million people, one-half of it is 700,000 people. It has 
three Presidents, three Foreign Ministers, two currencies, two 
police forces, internal border control. It does not exist 
except on paper.
    In my view, it was a mistake to create it, but it happened. 
They have the right to decide their future next year. The 
European Union has argued that Montenegro, as a separate 
country, is too small to survive or be viable, despite the fact 
that at least three countries now in the European Union are 
smaller--Luxembourg, Malta, and Cyprus--and despite the fact 
that this creation, SAM, does not function as a country. The 
President of Serbia and Montenegro, who is a Montenegran, will 
tell you that. He will sit in his office, as he told me, and he 
will say: I do not really have a job.
    So what they do is up to them. I am in favor of self-
determination. But my view is strongly that we should not 
oppose that self-determination.
    Secretary Burns referred to his meeting with President 
Djukanovic of Montenegro, but he did not point out that this 
was a major step forward for American policy. Again, they 
stepped forward from 4 years of supporting this concept which 
did not work well. So I congratulate him on making the correct 
move.
    Secretary Albright and I met regularly with Djukanovic, not 
that we supported him or did not support it, but because of the 
history of the area. Montenegro was an independent country. Why 
does it not get the same status as the other former Yugoslav 
republics?
    Finally, if Kosovo were ever to achieve independence there 
is no chance that Montenegro would stay inside SAM. Or if they 
got association within the federation, they would not.
    So I think Montenegro should be allowed to go its own way 
with the EU's support. It will be good for their economy as 
well.
    As far as Macedonia goes, the United States played a very 
good role under the leadership of Ambassador Jim Pardue in 
settling a near-war there a few years ago. I am hopeful that 
that will continue and I would like to see, as Secretary Burns 
would like to see, progress in the right direction.
    There are some unresolved problems between Macedonia and 
Greece which also have to be dealt with, and that is why 
officially we still refer to them as the Former Yugoslav 
Republic of Macedonia, even though there is no Yugoslavia. So 
there are some unresolved issues, but most of the issues were 
dealt with during the Dayton negotiations, prior to the Dayton 
negotiations. I have worked very closely, particularly with 
Senator Sarbanes, on that issue.
    In the end, this region needs to be stabilized for our 
national security interest as well as peace and stability in 
Europe.
    The Chairman. Ambassador, you mentioned that, frankly, you 
thought the outcome should be independence, but at the same 
time you listed some very important standards that had to be 
observed if that is to work. Now, at the end of the day, what 
is likely to be the reaction of the Security Council to that 
independence, even with the standards that you have mentioned?
    Mr. Holbrooke. When you--I would like to make two points, 
Mr. Chairman. When you talk about the Security Council, you are 
really talking about five countries, the permanent countries. 
China does not have a vested interest, so we are down to four. 
Three of the four, Britain, France, and the United States, are 
more or less in the right ballpark as far as I understand it. 
Nick may wish to nuance that.
    The fourth of the four, Russia, has a real problem here. 
They have always been open about it. There are Serb-Slav ties 
that
are very historic and important and legitimate, and the 
Russians
are concerned about precedents. ``Precedents'' is a codeword 
for Chechnya and other autonomous republics within the Russian 
Federation.
    So it will not be easy in the Security Council, but in the 
end the Russians, the Chinese, the Security Council, will go 
along with what President Ahtisaari negotiates. I am absolutely 
sure of that. That is the history of the Balkans over the last 
decade.
    The Chairman. You have mentioned the importance of a 
continuing American presence. Perhaps this could be through 
NATO in a peacekeeping presence at that point. Is that your 
idea? In other words, our presence would come because we are a 
member of NATO and NATO would be involved, as opposed to some 
other presence outside of that construction?
    Mr. Holbrooke. That would be my preference, Mr. Chairman. 
But it is no secret that there has been a significant 
disagreement on this point in regard to both Bosnia and Kosovo 
over the last 5 years. The Pentagon, under troop pressures and 
perhaps a different point of view about the Dayton and Kosovo 
events, has often shown a public desire to remove all the 
troops from the region.
    President Bush went to Camp Bondsteel in Kosovo in 2002 and 
said, ``We came in together, we will leave together.'' That 
pledge is of immense importance in the region and I believe it 
should transcend the solution, the settlement, of Kosovo's 
final status because of the Serbs. Anyone who has been there, 
anyone who saw the horrendous, inexcusable destruction of some 
of the most beautiful religious and cultural sites in Europe in 
Kosovo by Albanians, knows that this problem is not over, that 
the ethnic hatred is so deep that it must be dealt with with a 
residual force.
    Now, back to the United States, there are two points of 
view: Let the Europeans do it and let us be part of it. I, like 
Secretary Burns, come unreservedly down in the latter camp. 
Why? Because history for over a century shows that when the 
Europeans unaccompanied by Americans muck around in the Balkans 
bad things happen. It is a long historical problem.
    The United States remains the dominant moral-political 
force in the region. A lot of this has to do with history, long 
tight ties between people of the Balkans and the United States 
in States like my own State of New York, Senator Voinovich's 
State of Ohio. These things matter out there.
    We cannot walk away. So yes, sir; I hope it would be a NATO 
force with the United States involved and not what they have 
done now in Bosnia, which is NATO is replaced by an EU force 
and the Americans are set aside in a separate camp. I do not 
think that was the right solution, but it is less critical in 
Bosnia.
    The Chairman. Thank you very much for those responses.
    Senator Biden.
    Senator Biden. Thank you, Mr. Chairman. You have asked 
three of the four questions I wanted to pursue and it will not 
surprise anyone here, I agree completely with the answers given 
by the Ambassador.
    I also want to--I acknowledge the Ambassador's very kind 
remarks, but I am sure no one here thinks I would have been 
passionate about this issue early on nor threatened in any way 
the Ambassador at the time.
    Let me skip because, Mr. Ambassador, I really do--every 
single thing you have just stated I concur with 100 percent, 
particularly NATO and U.S. presence. I think it is--and I was 
one of the few who was not happy with the European Union 
replacing NATO in Bosnia. I think it was not a good thing.
    But, having said all of that, let me--you have answered--
you have spoken of the Security Council, Russia's particular 
concern. You have spoken to the issue of the sort of coalescing 
of three or four important domestic issues in Belgrade relating 
to Montenegro, relating to Srbska, relating to Kosovo. There is 
a lot on the plate there and a lot of the historical tensions 
among the nationalists of all stripes have been sort of 
heightened here. There is a lot going on. This is the final 
throes of, in my view, the final throes of the dissolution of 
this country called Yugoslavia. It is not done yet. There are 
still some spasms left and how it takes place can impact a lot 
on what finally happens.
    Which leads me to this question. If we are--speaking for 
myself, I think if we are to be fair and balanced about this, 
we have to acknowledge that the present Serbian leadership in 
Belgrade has some real pressure on it with all that I have 
described and we have talked about happening. And there are a 
lot of crosscurrents in Serbia on these issues. So it leads me 
to this question: How would you characterize the status and the 
strength of present leadership in Kosovo?
    These are hard decisions, no matter how you cut it. No 
matter even if all the equities are on the other side--and they 
are not--this is a very, very difficult political--I sit here 
as a politician thinking, OK, I am now, I am leader in 
Belgrade, and I can sit down and analytically listen to all 
these Senators and other people from around the world saying, 
look, it is in your interest if there is an independent Kosovo, 
it is in your interest if you have a different relationship 
with Montenegro, it is in your interest if you are able to lead 
the path to joining NATO and the European Union. But whoa, 
getting from here to there is pretty hard politically at home.
    Talk to me a little bit about what you see--and you always 
have these arching--this capability, unlike anybody I have 
known since Kissinger, to sort of take these disparate pieces 
and kind of put them together. Tell me what you think is going 
on in Belgrade? What are the political equities and 
considerations, and what is the nature of the political 
leadership, the strength of it, to be able to do what I think 
if you dropped in from Mars and said, OK, analytically this is 
what has to happen? Where are we?
    Mr. Holbrooke. Senator Biden, first of all before I answer 
your question, let me state for the record that you did never 
threaten me, and I really--I am afraid because we have been 
friends for so long I neglected to really make the other point, 
which is that, for the record, I would never have been 
confirmed as Ambassador to the United Nations without your 
friendship and support and advice. Everyone else on this panel 
also was supportive, and I thank all of you.
    But I do want to put the t's in the context of the facts. 
You have asked a very critical question. You asked about the 
leadership. I want to say briefly the Albanians and then talk a 
little more about the Serbs.
    Nick Burns already alluded to the fractious nature of the 
Albanians. At Rambouillet there were 17 Albanian 
representatives representing 17 different points of view. I was 
not at Rambouillet, but I was in close contact with the group 
that was. Rugova is the only Albanian who seems to have overall 
stature. His illness is a tremendous, tremendous tragedy for 
the region as well as personally.
    They are very fractious people. It comes with their history 
and their territory, and it will be, I predict, the single most 
difficult issue in the end will not be in Belgrade--I will get 
to them in a minute--it will be in Pristina.
    In regard to Belgrade, this is extremely difficult for any 
Serbian, any Serb politicians. They are well aware of the fact 
that Kosovo was lost by Milosevic as part of his progressive 
process of losing parts of Yugoslavia. First he lost Slovenia, 
then he lost Croatia, then he lost Macedonia peacefully, then 
he lost Bosnia-Herzegovina, and then he lost Kosovo and then he 
ended up in The Hague.
    But because of the unique place Kosovo has in Serb history 
and the sense of the Serb nation, it is virtually impossible 
for any leading political figure in Belgrade to talk about the 
possibility that Kosovo could become an independent country. So 
the Serbs, what have had a terrible run of bad luck 
historically in the last 15 years, are faced with a cruel 
dilemma, and I believe it is up to the United States and the 
European Union and the United Nations, but the United Nations 
is really the vehicle--it is really a United States-European 
Union negotiation--to help Belgrade through this process.
    The most important aspect of this on the positive side is 
Brussels, the European Union. In the end, the Serbs in Belgrade 
will have to choose between Brussels and Kosovo. It is as 
brutal as that. If they want to become part of the European 
Union, they will have to--they will have to figure out how to 
let Kosovo gently go and make sure they get guarantees.
    Meanwhile, the Albanians must know that if they do not give 
the kind of guarantees that Nick Burns and I have talked about, 
they will not get to their desired goal. So you have an 
extraordinarily difficult negotiation. It will take a lot of 
carrots in Belgrade to make the Serb leadership see the value 
for them and it will take some very heavy pressure on the 
Albanians not to think that they can just grab Kosovo and then 
drive the remaining Serbs out of their ancestral home.
    This is going to be one tough negotiation. I have a lot of 
confidence in Ahtisaari, but he will need strong U.S. backing, 
because left to their own devices the Europeans, as a group, 
will not be able to create a coherent negotiation.
    Senator Biden, I hope that addresses your very complicated 
point.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Biden.
    Senator Voinovich.
    Senator Voinovich. I am interested in your stressing the 
importance of KFOR. Three or four years ago I visited Tusla 
with several Members of Congress and they took us around in 
their jeeps and we saw the houses being rebuilt and so forth. I 
asked one of the servicemen: What happens when you leave? His 
first response was: They are going to start killing each other 
again. My wife asked the same question and that was the answer 
that she had.
    Mr. Holbrooke. Was this in Bosnia, sir, or in Kosovo?
    Senator Voinovich. It was at Tusla.
    Mr. Holbrooke. At Tusla.
    Senator Voinovich. Yes, right.
    From your point of view, have we supported KFOR to the 
extent that we sent a signal out to the Albanians in Kosovo 
that we are serious about what we are doing there and have the 
caveats that Secretary Burns made mention of been removed to 
the extent that they should be, and do they have the training 
in terms of antiriot control and the equipment that they need 
to get the job done?
    In other words, I guess the question is, Are they 
formidable enough that they send a signal out that if someone 
thinks that they can take to the streets that they can get away 
with it?
    Mr. Holbrooke. This question goes to the heart of why I 
believe, and I think Senator Biden made the point too, that the 
United States must remain involved. Technically, yes; they are 
strong enough, but there is something missing in the European 
deployments. Now, Nick Burns alluded to the change in national 
asset rules, but I am more skeptical in that. Time and time 
again, in Sarajevo when the Serb suburb of Gerbovitsa was 
burned down by the Bosnian Serbs themselves in March 1996, when 
the thugs drove Serb families that had lived in Sarajevo for 3 
centuries or more out of their apartments and houses because 
they wanted to destroy moderate community, NATO stood by. Again 
last year, as Senator Sarbanes and Senator Biden mentioned, the 
NATO troops stood by in Pristina and only the Americans acted.
    So it is not a question of the ability, the logistics of 
the armaments. It is a question of will. The United States is 
just better at this. I do not want to sound chauvinistic about 
it. I have just seen it on the ground. So I hope that KFOR will 
remain a NATO assignment with a significant American presence, 
because I truly believe, Senator, that that is part of the 
essential way to protect the Serb minority if and as we move 
forward.
    Senator Voinovich. Do you not think it is also a condition 
precedent for the Serbs at the negotiating table to agree to do 
certain things that might give more autonomy to the Kosovars 
and say, yes, we are willing to give you. Now, I was there a 
year ago. They said: Give us the ball, we will carry it, we 
will do what we are supposed to do, but we cannot be dealing 
through the U.N. mission in Kosovo because we do not have a lot 
of confidence in them.
    Mr. Holbrooke. You are talking about the Serbs in Pristina 
or in Belgrade?
    Senator Voinovich. I was talking about when I was in 
Pristina talking to the Kosovars. They were saying: We want 
more authority to get the job done, and give us the ball and we 
will do it; we are being held back by the UNMIK folks.
    Mr. Holbrooke. I had the same experience.
    Senator Voinovich. OK. So to the Serbs you say, here is the 
ball, we are going to let you carry it, you got it, but there 
has got to be some guarantee back in Serbia and in Belgrade 
that if it does not work people are not going to get killed and 
they are not going to burn down the monasteries and the other 
patronymic sites. Do you not think that is a condition 
precedent for them to move forward in terms of their political 
situation?
    Mr. Holbrooke. No question.
    Senator Voinovich. OK. The next question is this. If this 
thing is not handled properly, do you not believe that the 
Milosevic forces and the Seselj forces from a political point 
of view could end up taking over and we would lose Kostunica 
and Tadic and that group?
    Mr. Holbrooke. There is a risk of that and that is why it 
is so important that this negotiation move fast and why I feel 
it is such a tragedy that we lost the last 4 years and the life 
of Zoran Djindjic and Foreign Minister Slivanovic, both of whom 
would have wanted to move faster. That was a tragic--the 
standards before status concept was just wrong. But now we have 
the move.
    Senator Voinovich. The fact of the matter is, I am very 
critical of UNMIK. Even with Steiner, I thought he was going to 
do the job and they did not dot the i's and cross the t's. I 
think they just fuzzed it over. Now we have Petersen there. The 
question is, Once negotiations are finished who is going to be 
responsible for implementing what has been negotiated? Is UNMIK 
going to do it, or who is going to be the one to do that?
    I think the Kosovars will have some real concern about who 
is going to make sure that it gets done.
    Mr. Holbrooke. You are asking me to speculate, so allow me 
to just speculate. I believe UNMIK will have to be disbanded 
when and if a final status is agreed upon, and I hope it will 
be succeeded by a smaller, slimmed down international civilian 
presence roughly along the lines of the Office of the High 
Representative in Bosnia, which I would stress to you, Senator, 
is not a U.N. operation.
    When I was at Dayton, we did not let the United Nations 
come to Dayton because they had made such a hash of the Balkans 
and they were not given the responsibility. Lord Ashdown, 
Ashdown's mission is not a U.N. mission.
    Now, I agree with you about UNMIK, and UNMIK made three or 
four fatal mistakes. One, they never devolved enough authority 
to the local people, as called for in 1244. Two, they created 
their own international bureaucracy and did not help with the 
economic situation. Three, they got caught up with their own 
bureaucracy. And four, they did not implement the final status 
talks.
    So that is all over with now. Ahtisaari is a negotiator and 
a very good one. You have already outlined one of the things I 
think the Serbs ought to push for, which is a residual security 
presence including NATO and U.S. troops. The other one is 
opening the door toward movement toward European Union 
membership. Those two things plus guarantees for the Serbs are 
necessary.
    But in the end they are going to have to still bite the 
bullet on a much tougher issue, which is the future status of 
Kosovo itself, with all the history that that carries.
    Senator Voinovich. The last thing I would like to say is 
that people have to be incented to do things. I know again a 
year ago I spent 3 days, 2 days, in Belgrade, just everywhere I 
went saying: You have got to choose The Hague or you have got 
to choose your economy.
    Do you not believe that some action on the part of the 
European Union and on our part to give the Serbian people 
confidence that this will move them forward in terms of having 
a better standard of living would make also a great deal of 
difference in terms of what their leaders are going to be able 
to do at that table?
    Mr. Holbrooke. Yes, sir; I do, absolutely, no question.
    The Chairman. Thank you very much, Senator Voinovich.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Ambassador, thinking back to that troubled region, in 
early 2004 the President of Macedonia was killed in a plane 
crash. He seemed to be something of a consensus-builder. What 
was his influence on the Kosovo situation?
    Mr. Holbrooke. He played a very important role in keeping 
the ethnic tensions from spreading into Macedonia, which was 
very close to a brutal breakup between the Albanians in the 
southwest area around Tetovo and the Macedonians up around 
Skopje. So it was a tragedy.
    But Macedonia has held together and here I think American 
diplomacy under both President Clinton and the current 
administration has been a success. Then I should mention--
excuse me, Senator--one name that has not been mentioned today, 
Mr. Chairman, is my former colleague, Chris Hill, who would be 
here today except that he is in Beijing working on the North 
Korean negotiation. Chris was with us at Dayton, did a 
brilliant job, was our first Ambassador to Macedonia, and 
deserves a lot of credit for what has happened.
    Senator Bill Nelson. If the inevitable trend is, as you 
would suggest, independence and the economy is in such dire 
straits right now with regards to Kosovo, what do you recommend 
that the United States should do in this interim until such 
time that it might be apparent that independence would include 
protections of the minority?
    Mr. Holbrooke. The first and most important thing for the 
United States to do is to reengage in the area after these 4 
years of neglect, and the testimony you have heard today from 
Under Secretary Burns speaking for Secretary Rice and President 
Bush is dramatic testimony that the 4 years are over and they 
are moving in the right direction. That is why I am here today 
as a bipartisan witness actually to endorse 99 percent of what 
Nick said.
    The second thing to say is that the United States should 
not pull out of the region because history shows when we do, 
bad things happen. The specifics, which we have covered in 
detail, may all shift, but the United States does have a vital 
national security interest in stability in Europe. This area 
lies in the heart of Europe, with NATO members to its south and 
east, Turkey and Greece, and just beyond them the area of 
maximum danger to the United States and the whole world, Iraq, 
Syria, Iran, and so on.
    I want to say one other thing, Senator, which I had not 
mentioned earlier. Had we not acted in Dayton 10 years ago and 
had we not written into the agreements that we gave ourselves 
the unilateral right to use military force to root out foreign 
elements, foreign freedom fighters--we called them mujahedin 
then; we had not heard the name at Dayton ``al-Qaeda''--we now 
know that the Dayton agreement and the actions in Kosovo 
stopped Usama bin Laden and al-Qaeda from building in the 
Balkans what they built in Afghanistan that much closer to us 
and that much closer to the heart of western Europe.
    So I say all that because everywhere you go people are so 
concerned, legitimately, with Iraq and Afghanistan. They say, 
well, the Balkans is yesterday's news. We came that close to 
having the war we are having in Afghanistan in the deep ravines 
and hills and caves of the Balkans, which would have been not 
much fun. As we all know, 44 Nazi divisions were tied down in 
Yugoslavia by the partisans in World War Two.
    So this is an area of great importance to the United States 
and this committee, as I said already, has played a 
tremendously important role in keeping interest alive. We just 
have to keep doing it, and in this particular case on a totally 
bipartisan, nonpartisan basis.
    Senator Bill Nelson. All of the military commanders that I 
have talked to over the last number of years have expressed 
their intent to find these war criminals that are still on the 
run, and yet it has not occurred. What would be your 
recommendation so that we could be more effective, and what 
more should we do to bring them to justice?
    Mr. Holbrooke. Thank you, Senator. I am constantly asked, 
particularly right now on the 10th anniversary of Dayton, was 
Dayton a success or a failure? I always say it was a success 
because it ended the war and it achieved our goals, even though 
it was full of flaws.
    Then the question you raised always comes up. The basic 
thing I would say is this. People when analyzing Dayton confuse 
the agreement and its implementation. The agreement provided 
for the capture of these men. The implementation did not 
succeed. This is critical.
    Now, why was not Karadjic, who is the most important of 
this group, and Mladic right behind him, captured? The hard sad 
truth, as I wrote in my book and have said repeatedly, is that 
NATO failed to go after them in the spring of 1996 when 
Karadjic's green Mercedes Benz was parked outside his office in 
Poli. President Clinton said later he considered the actions of 
this admiral insubordination. But at the time the U.S. 
Government failed to insist.
    So Karadjic--in June 1996, I went back to Belgrade as a 
private citizen, negotiated with Milosevic the full removal of 
Karadjic from his public positions and he went into hiding, 
where he has been for 9 years. I believe that he has cut off 
his big dramatic white hair. He may have grown a beard. I would 
bet that he is in a monastery somewhere in the triangle between 
eastern Bosnia, Serbia, and Montenegro. It is just a guess--
protected by paramilitary thugs, extreme ultranationalists, and 
this kind of corrupt mafioso which has pretended to be Serb 
nationalist for so long but actually has cheated and stealed 
and weakened the Serb people and denied them their chance for 
their rightful role in Europe.
    Karadjic also actively is undermining the implementation of 
Dayton whenever he possibly can. Mladic, as Secretary Burns 
said, was in a military base, now seems to be somewhere else. 
Capturing these two people is essential. It is not just 
symbolism, although symbolism is important. They are, 
particularly Karadjic, are clear and present dangers to 
stability in the Balkans.
    They will not be captured by sweep operations. You do not 
capture people by sweep operations in deep ravines with 
hundreds and thousands of little villages. I am sure, Senator 
Voinovich, when you drove, as I did, from Tusla through the 
area--I looked at these villages and I said, supposing you had 
intelligence that Karadjic was in that village; to seal it off, 
close it, and search it house by house, you would tip them off 
way in advance. You could not do it.
    Remember that Saddam Hussein was not captured through a 
search operation. They had left that farmhouse when a farmer 
said: Take another look. So they looked again and they found 
his spider hole. That is the way you capture these people.
    There is a very big reward out for these men and we have to 
redouble the effort. Senator, I never felt we made enough of an 
effort under either, the administration I was part of, or the 
current administration. Now, officials of both administrations 
will tell you we have tried. I am just telling you as a private 
citizen and my obligation to your committee, I do not believe 
the effort was ever sufficient. But it has to be an inside job. 
You are not going to do it through sweep operations.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Holbrooke. And by the way, all of this, what I have 
just said, I believe applies equally to Usama bin Laden. We are 
not going to find him by searching through the caves in Tora 
Bora. You have to get intelligence and somebody turns him in.
    The Chairman. Thank you, Senator Nelson.
    Senator Voinovich, do you have additional questions?
    Senator Voinovich. Mr. Chairman, I would just like to 
emphasize again, you just talked about Karadjic and you think 
that he is still someone that we will have to reckon with, and 
the same way with Mladic. I do not want to beat a dead horse, 
but I certainly hope that people understand the political 
situation in Serbia and Montenegro today. You have got Kosovo 
and then you have got the whole issue of what is going to 
happen to Montenegro, and you have kind of a very slim 
coalition; and that if this should, these negotiations, should 
precipitate a change in the leadership there, what a horrible 
thing that would be for the region and a great setback.
    Would you like to comment on that?
    Mr. Holbrooke. I completely agree with you, and that is why 
both Nick Burns and I have said it is going to be a tough, long 
negotiation. The dilemma is you cannot let yourself be 
paralyzed by the risk that action will trigger the collapse. 
But you do not want to trigger the collapse, either. And this 
was true in Dayton, sir. It is true in all these negotiations. 
It is true in the Mideast today. You are always confronted with 
the internal politics as a factor that could constrain you.
    Therefore, you have to give Tadic--and I share Nick Burns's 
positive assessment of Tadic; I like the man, I have worked 
with him. I think he is trying his hardest. You have to give 
Tadic and Kostunica, who is a very intelligent man, a serious, 
serious man who combines great love of his country and a 
serious legal mind, you have to give these leaders enough 
benefits so that they do not appear to have betrayed 1,000 
years of Serb tradition.
    Benefits in the form of guarantees for the safety of the 
Serb minority in Kosovo, which we have already discussed, and 
economic incentives involving the European Union are the two 
core things. It will be a tough negotiation, and the United 
States must be part of it because, in my view, the Serb really 
respect the United States more than any of their European 
neighbors.
    Senator Voinovich. And we are the largest investor in 
Serbia today of any of the countries. It is interesting. The 
United States is the biggest investor in Serbia today than any 
of the other nations.
    Mr. Holbrooke. I did not know that.
    Senator Voinovich. Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Voinovich.
    Ambassador Holbrooke, we thank you again. We appreciate 
your underlining the purpose of our hearing, Kosovo, a way 
forward, and the thought that this does present another 
opportunity. We wanted to hear from the administration, and 
Secretary Burns has done a splendid job in outlining that point 
of view. You have been most generous in your support, as you 
say, of 99-percent-plus of this in a bipartisan way, 
underlining from your own experience the joys and the 
heartaches and the difficulties that are involved.
    Senator Voinovich, because of his experience as a committee 
member, offered a special testimony in his own way.
    We thank you very much for coming. We thank our previous 
witness, and the hearing is adjourned.
    [Whereupon, at 12:00 noon, the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


   Response of Under Secretary of State Nicholas Burns to a Question 
                       Submitted by Senator Lugar

    Question. I understand that on January 1, NGOs will no longer be 
exempt from taxes in Kosovo. What are the potential implications for 
the NGO community? What steps is the United States taking if any, to 
rectify the matter?

    Answer. In general, the United States supports the alignment of 
Kosovo's tax structure with accepted European standards while also 
facilitating the donation of goods to the people of Kosovo. The U.S. 
Agency for International Development in Kosovo has asked Kosovo's 
Minister of Finance and Economy to delay removal of the tax exempt 
status for NGOs until June 1 in order to allow more time for the 
government and international community to study this issue. We are 
awaiting the Kosovo Government's decision, and will at that time, 
decide what--if any--further action is required.
                                 ______
                                 

   Responses of Under Secretary of State Nicholas Burns to Questions 
                   Submitted by Senator Barbara Boxer

    Question. Mr. Burns, you have said that the status quo of Kosovo's 
undefined future is ``not sustainable or desirable.'' Yet I'm sure that 
you know, better than perhaps anyone, what we are up against.
    In a Washington Post article last month, Ivo Daalder, a Balkans 
specialist at the Brookings Institution, said of the upcoming 
negotiations that ``this has the makings of classic conflict . . . The 
American view is to lean toward independence; the European Union will 
say, `Let's figure out a way not to make that decision'; and the 
Russians on the opposite side saying, `Over my dead body.' ''

  <bullet> What is your response to Mr. Daalder's claim?
  <bullet> Does he accurately describe the American, European, and 
        Russian perspectives? If so, how can we forge a consensus that 
        achieves long-term stability in Kosovo and the Balkans?
  <bullet> What, in your view, should a final political settlement look 
        like? Is there a solution short of full independence that 
        Kosovo's ethnic Albanians will be able to live with?

    Answer. The United States continues to work closely with the 
European Union and Russia throughout the Balkans, particularly within 
the Contact Group, which consists of France, Germany, Italy, Russia, 
the United States, United Kingdom, and the European Union. The Contact 
Group has worked well together over recent years in support of the U.N. 
Interim Administration Mission in Kosovo (UNMIK) and agreed to the 
start of Kosovo status talks.
    While the Contact Group does not have a preferred status outcome, 
it did state in its November 2005 Guiding Principles for Kosovo status 
talks that any settlement ``. . . must be fully compatible with 
international standards of human rights, democracy and international 
law, and contribute to regional security.'' Additionally, the partition 
of Kosovo or its union with any country or part of any other country is 
not an acceptable outcome because it would threaten the multiethnicity 
of Kosovo and further the efforts of irredentists throughout the 
region.
    At this stage of the status process, the United States believes it 
would be premature and unhelpful to offer any views on what the outcome 
of a status settlement should look like beyond those principles 
outlined by the Contact Group. The United States fully support and will 
lend its weight when needed to the efforts of U.N. Special Envoy Martti 
Ahtisaari to bring together both sides to try and reach a compromise 
solution that furthers the U.S. and international community's goal of a 
secure and stable Balkan's region.

    Question. The United States has been involved in the Balkans for 
more than a decade, and I would like you to discuss what lessons the 
United States has learned in dealing with the ethnic conflict there. I 
ask this question because it seems to me that the crux of the conflict 
in the Balkans--reaching power-sharing and territorial agreements 
between the various ethnic and religious groups--is similar, in some 
respect, to what the United States is facing in Iraq today.

  <bullet> What should we have learned from Kosovo that we could have 
        applied to our engagement in Iraq to avoid the quagmire we are 
        in today?
  <bullet> What should we take from our involvement in Kosovo--both the 
        good and bad points--to help us make the right decision when 
        weighing whether to become involved in future conflicts?

    Answer. Establishing democracy and freedom in regions that have 
only known authoritarian, oppressive rule is a challenging and 
difficult task, but one that can be undertaken successfully. While no 
two conflicts are identical, the United States joined with its European 
allies to prevent the further violence and oppression wrought by 
Slobodan Milosevic and his corrupt regime in Kosovo and Bosnia and 
Herzegovina. Milosevic, like Saddam Hussein, had a lengthy track record 
of human rights violations and both leaders presented threats to the 
overall security and stability of their regions and the world at large. 
In both cases, the challenge for the United States and its partners has 
been to assist in the transition from the politics of ethnic or 
religious identity to the politics of issues and interests.
    What United States and international efforts in the Balkans and 
Iraq have demonstrated is that through a continued commitment and 
partnership with those who share our goals, progress can be achieved. 
While sustainable results require time--as evidenced by the work that 
is still required in Kosovo--thousands of people once displaced have 
returned home in Croatia, Bosnia and Herzegovina, and Kosovo and 
efforts to slowly incorporate this region into Euro-Atlantic 
institutions are beginning to bear fruit.
    In Iraq, the political transition laid out in the Transitional 
Administrative Law and unanimously endorsed by the U.N. Security 
Council, has already resulted in successful national elections, the 
ratification of a permanent constitution, and the foundations for 
elections under the constitution on a more inclusive basis.

    Question. It is my impression that greater ties with the European 
Union and eventual EU membership holds the most promise for--resolving 
in a meaningful way--the long-term instability that continues to plague 
the Balkans. Yet the failed referendums on the EU Constitution in 
Holland and France earlier this year--and the problems surrounding the 
potential accession of Turkey into the European Union--suggest that the 
EU is not ready to really take on the membership of Balkan countries.

  <bullet> Short of full membership, how can the EU embrace these 
        countries in a meaningful way?
  <bullet> Is there any hope that their membership can be considered 
        within a reasonable timeframe?

    Answer. Despite the outcome of the votes in France and the 
Netherlands, the European Union continues to view the prospective 
membership of the Balkan countries very seriously. In addition to 
Turkey, on October 3, the EU granted candidate status to Croatia. Also 
on October 10, the EU began Stabilization and Association Agreement 
(SAA) negotiations with Serbia and Montenegro. In addition, the 
European Commission on November 9 recommended that the European Council 
provide candidate status to Macedonia and that formal accession 
negotiations could commence as soon as Macedonia met certain membership 
criteria. The European Union has also opened SAA negotiations with 
Bosnia and Herzegovina on November 25. Pursuant to the 2003 
Thessaloniki Agreement, the EU is committed to advancing the 
candidacies of the countries in the Balkans as EU Member States as they 
complete extensive membership criteria.

    Question. Although I strongly believe that the international 
community is entering into the upcoming status negotiations on Kosovo 
with the best of intentions, there remains the very real possibility 
that tensions within Serbia and Kosovo could become worse instead of 
better as a result. Again, we are dealing with two diametrically 
opposed entities, and one party is not going to get everything that it 
wants.

  <bullet> For instance, what would full independence for Kosovo mean 
        for Serbs in the region?
  <bullet> And how would full independence for Kosovo impact 
        neighboring areas with sizeable Albanian populations, such as 
        Macedonia and Montenegro?
  <bullet> Could we see a push for a greater Albania?
  <bullet> Is the international community prepared to respond if 
        problems in the region become worse as a result of our efforts?

    Answer. As noted in Norwegian Ambassador Kai Eide's October 2005 
report on the political situation in Kosovo, ``There will not be any 
good moment for addressing Kosovo's future status. It will continue to 
be a highly sensitive political issue. Nevertheless, an overall 
assessment leads to the conclusion that the time has come to commence 
this process.'' Following the release of Ambassador Eide's report, the 
U.N. Security Council agreed with the general conclusions of the Eide 
report and supported U.N. Secretary General Annan's launch of a 
political process to determine Kosovo's future status, as called for in 
U.N. Security Council Resolution 1244 (June 1999).
    Regardless of the status outcome, it is important that Kosovo's 
future political status contribute to regional security and ensure 
sustainable multiethnicity in Kosovo. As part of any settlement 
agreement, the rights of all communities in Kosovo must be protected 
and those individuals and families that continue to live in 
displacement must be afforded the opportunity to return home. An 
important component to creating sustainable multiethnicity in Kosovo is 
devolving more responsibilities to local governments. While the United 
States is encouraged with the start of several decentralization pilot 
projects earlier this year, Kosovo officials must do more.
    The Contact Group has clearly stated ``There will be no changes in 
the current territory of Kosovo, i.e., no partition of Kosovo and no 
union of Kosovo with any country or part of any country.'' A final 
status outcome that enhances rule of law and stability in Kosovo, while 
upholding the inviolability of regional borders, will improve security 
for all of Kosovo's neighbors and the wider region. Meanwhile, 
Macedonia is making its contribution to regional peace, security, and 
stability by having completed the legislative implementation of the 
2001 Ohrid Framework Agreement and moving forward on related democratic 
reforms that are bringing it closer to eventual, full Euro-Atlantic 
integration.
    In Montenegro, the United States continues to work closely with our 
allies, especially the European Union, to support democratic 
developments and further Montenegro's integration with the region and 
the European Union. Developments in Montenegro remain separate from the 
Kosovo status process, but the United States has encouraged leaders in 
Montenegro to continue to ensure that any referendum in Montenegro 
enhance regional stability and not interfere with the Kosovo status 
talks.
    Additionally, there is no connection between a Kosovo status 
process and the situation in Bosnia and Herzegovina. While some may 
seek to draw parallels between Kosovo and the Republika Srpska entity 
in Bosnia and Herzegovina, Bosnia and Herzegovina's international 
borders have been clearly defined by the Dayton Peace Accords and the 
U.N. Security Council.
    While extremist elements may try to use the status talks as a 
platform to further their political aims, the NATO-led Kosovo Force 
(KFOR), which includes approximately 1,700 U.S. troops, is prepared to 
respond to any unrest in Kosovo. The international community has also 
made clear that individuals who use or condone the use of violence will 
have no role in the status talks. We will continue to encourage all 
governments in the region to remain vigilant and to take appropriate 
action when necessary to prevent any possible extremist violence from 
affecting the status talks.

    Question. Shortly after 9/11, the State Department launched a 
public diplomacy campaign aimed at reaching out to the Muslim world. 
One of the highlights of the campaign was to point out that the United 
States intervened on behalf of Muslims in both Bosnia and Kosovo. Yet, 
it appears as though highlighting our efforts on behalf of Muslims in 
the Balkans failed. Today, the disapproval rating toward the United 
States remains staggeringly high within the Muslim world.

  <bullet> Why do you think our efforts in the Balkans on behalf of 
        Muslims had so little impact on the wider Muslim world?

    Answer. America's relationship in the Muslim world is broad and 
complex, influenced by history, policy, and personal relationships 
between our peoples. With so many factors influencing the way we view 
one another, it would be difficult to pinpoint precisely why the story 
of our success in freeing the people of Bosnia and Herzegovina and 
Kosovo has not had a larger impact. We do, however, believe it is an 
excellent example of America's will to act in support of freedom for 
all people, and will continue to highlight it in the Muslim world and 
elsewhere.
    As you know, under the direction of Under Secretary for Public 
Diplomacy and Public Affairs, Karen Hughes, the administration is 
moving forward with an aggressive public diplomacy strategy 
highlighting our efforts to support freedom and democracy for all 
people. Engaging Muslim populations, particularly its youth, remains an 
important objective in our overall public diplomacy effort.

    Question. If Kosovo's borders remain unchanged, and Kosovo is 
granted full independence or some type of conditional independence, 
what are the prospects for a peaceful coexistence between ethnic 
Albanians and Serbs within Kosovo?
    If a final status agreement is reached, will Kosovo's Serb 
population need continued protection from the international community 
or from a regional peacekeeping force?

    Answer. Any settlement on Kosovo must provide effective 
constitutional guarantees that ensure the protection of all its people. 
A key component to creating sustainable multiethnicity in Kosovo is 
empowering local governments, including minority communities, by giving 
them greater control over issues such as health, education, police and 
justice.
    In addition to these constitutional guarantees, the international 
community recognizes that a continued NATO presence and a follow-on 
international civilian mission will be needed in Kosovo to ensure 
implementation of the settlement agreement and protection of minority 
rights. The nature and time line for both missions will be discussed 
during the status talks.

                                  <all>

</pre></body></html>
